<html>
<title> - BUILD BACK BETTER: WATER INFRASTRUCTURE NEEDS FOR NATIVE COMMUNITIES</title>
<body><pre>[Senate Hearing 117-20]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 117-20

  BUILD BACK BETTER: WATER INFRASTRUCTURE NEEDS FOR NATIVE COMMUNITIES

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 24, 2021

                               __________

         Printed for the use of the Committee on Indian Affairs

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                            

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-761 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------


                      COMMITTEE ON INDIAN AFFAIRS

                     BRIAN SCHATZ, Hawaii, Chairman
                 LISA MURKOWSKI, Alaska, Vice Chairman
MARIA CANTWELL, Washington           JOHN HOEVEN, North Dakota
JON TESTER, Montana                  JAMES LANKFORD, Oklahoma
CATHERINE CORTEZ MASTO, Nevada       STEVE DAINES, Montana
TINA SMITH, Minnesota                MIKE ROUNDS, South Dakota
BEN RAY LUJAN, New Mexico            JERRY MORAN, Kansas
       Jennifer Romero, Majority Staff Director and Chief Counsel
     T. Michael Andrews, Minority Staff Director and Chief Counsel
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 24, 2021...................................     1
Statement of Senator Cantwell....................................     3
Statement of Senator Cortez Masto................................    21
Statement of Senator Lujan.......................................    25
Statement of Senator Murkowski...................................     2
    Prepared statement...........................................     2
Statement of Senator Schatz......................................     1

                               Witnesses

Flores, Hon. Amelia, Chairwoman, Colorado River Indian Tribes....     4
    Prepared statement...........................................     5
Davidson, Hon. Valerie Nurr'araaluk, Interim President, Alaska 
  Native Tribal Health Consortium................................     9
    Prepared statement...........................................    10
John, Jason, Director, Navajo Department of Water Resources, 
  Navajo Nation..................................................    13
    Prepared statement...........................................    15
Tsumpti, Hon. Raymond, Chairman, Confederated Tribes of Warm 
  Springs........................................................     7
    Prepared statement...........................................     8

                                Appendix

Response to written questions submitted by Hon. John Hoeven to:
    Hon. Valerie Nurr'araaluk Davidson...........................    35
    Hon. Amelia Flores...........................................    36
    Jason John...................................................    36
    Hon. Raymond Tsumpti.........................................    37
Response to written questions submitted by Hon. Mike Rounds to:
    Hon. Valerie Nurr'araaluk Davidson...........................    34
    Hon. Amelia Flores...........................................    35
    Jason John...................................................    36
    Hon. Raymond Tsumpti.........................................    37
Response to written questions submitted by Hon. Brian Schatz to 
  Hon. Raymond Tsumpti...........................................    37
Southern Ute Indian Tribe, prepared statement....................    29
Ute Indian Tribe of the Uintah and Ouray Reservation, prepared 
  statement......................................................    30

 
                       BUILD BACK BETTER: WATER 
              INFRASTRUCTURE NEEDS FOR NATIVE COMMUNITIES

                              ----------                              


                       WEDNESDAY, MARCH 24, 2021


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:42 p.m. in room 
628, Dirksen Senate Office Building, Hon. Brian Schatz, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    The Chairman. Good afternoon. Today's oversight hearing 
will focus on the unmet water and wastewater service needs of 
Native communities. Water is essential for all communities' 
public health, especially in the midst of the pandemic, but 
also for education, jobs and economic development.
    Many Native communities cannot provide basic water and 
sewer connections for their people. Other communities may have 
aging water infrastructure which makes the use of this 
infrastructure challenging. Both need additional investment.
    The need for additional investment in water infrastructure 
is by no means unique to tribal land. In my home State of 
Hawaii, for example, recent flooding and landslide damage has 
severely compromised dams from the old plantation days, placing 
lives and property at risk. But the Federal Government has a 
special trust responsibility to ensure the general welfare of 
Native communities. The trust responsibility extends to 
providing access to providing clean and reliable water.
    Today we will hear from witnesses that continue to face 
challenges in meeting the basic water needs of their 
communities. I look forward to hearing about what Congress 
should consider in a potential infrastructure bill, because we 
have a real opportunity to build a bipartisan consensus around 
supporting the water infrastructure needs of Native 
communities.
    With that, I will turn to Vice Chair Murkowski for her 
opening statement.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. I will be brief 
because I want to get to our witnesses here today.
    But I want to show you, when we are talking about water and 
water systems, I am looking at an article from the Anchorage 
Daily News, March 14th. The headline is Fires, Deteriorating 
Infrastructure, and Unusually Cold Weather Strain Rural 
Alaska's Already Fragile Water Systems. In Unalakleet, the 
water drips from home faucets sometimes brown and sludgy. 
People say that they are tired of being afraid of our water. 
The water treatment plant in Unalakleet was built in the 1960s. 
It has been steadily failing for 10 years. Boil water notices 
have become a way of life in Unalakleet.
    In Selawik, roughly 60 homes have been without running 
water for weeks. In Tuluksak, the washeteria was destroyed in a 
January fire. It was the only building in the village with 
potable running water. Two months, and still that village is 
faced with challenges. They now have potable water in the 
school, but the challenges are far from over. In Nenana, a 
water plant freeze-up that could have been disastrous was 
controlled, but you had a town enduring a boil water alert in 
February, in the cold of winter.
    I share these because these are the conditions that people 
in some of the parts of my State are dealing with when it comes 
to access to basic drinking water, clean water, and water 
sanitation systems. I am pleased today to be able to have on 
this afternoon's panel a friend of mine, a friend of Alaska, a 
true leader, the Honorable Valerie Davidson. Valerie is now the 
interim president for Alaska Native Tribal Health Consortium. 
ANTHC has been doing considerable work throughout Alaska and in 
our rural villages to help address our water and waster 
infrastructure. So I am very, very pleased that not only is she 
here today to testify to the Committee, but I am so thankful 
that she has stepped into this very vital rule at ANTHC and for 
her leadership in the State.
    So I look forward to the comments from all the witnesses 
today.

  Prepared Statement of Hon. Lisa Murkowski, U.S. Senator From Alaska
    Thank you, Chairman Schatz.
    Enaa neenyo. [In the Koyukon Athabascan language, this means 
``welcome, or precious you came.'']
    The health impacts of the lack of sanitation and clean water 
infrastructure, in combination with overcrowded housing in so many 
Native communities remains an ongoing public health crisis.
    Across the state of Alaska, 32 Alaska Native communities have no 
access to in-home running water or sewer. Without access to running 
water, Alaska Natives, especially the youth, experience higher rates of 
respiratory infections, including pneumonia, when compared to the 
overall U.S. population.
    The pandemic has clearly underscored the need for these communities 
to have better water infrastructure. Simply washing your hands multiple 
times throughout the day to protect against the spread of COVID should 
not be a difficult task. But families in these communities are 
challenged with deciding whether the limited supply of water they 
receive should be used for other uses, such as cooking or drinking or 
using it for baby formula.
    The need for better access to water, whether it is creating a water 
facility through the building of a washeteria, or individually 
constructing a pipe system to reach each household in a community, is 
well-documented. We have seen over the course of the pandemic the 
impact of sanitation emergencies that exacerbate the risk of COVID-19.
    Earlier this year, in February, the Village of Tuluksak's 
washeteria and water treatment plant caught on fire. North of Bethel, 
Tuluksak is located along the Kuskokwim River and is not connected to 
the road system. Over a third of the community has tested positive for 
COVID-19. When their only source of clean water caught on fire, the 
village came together to fight the flames, literally hand carrying 
buckets of water from the nearby Kuskokwim River because their fire 
hose was stuck in the washeteria. Although the washeteria was 
completely lost to the fire, many came together to help bring clean 
water to the village and now the community waits for the rebuilding of 
their water facility.
    The inaccessibility to water is an issue for many tribal 
communities across the country.
    The latest Indian Health Service Sanitation Deficiency Levels 
report provided an inventory of projects ready to address existing 
sanitation deficiencies in American Indian and Alaska Native 
communities. These projects are provided funding and assistance for the 
construction of drinking water supply, sewage disposal, and solid waste 
disposal facilities. According to this report, there are 272 projects 
in the queue for the Alaska service area. This is the second highest 
for all 12 IHS service areas, just behind the Navajo service area. With 
hundreds of projects waiting to be approved, it shows that the need to 
address water infrastructure in an efficient way is needed for Native 
communities.
    The Committee previously held a field oversight hearing that I 
chaired on St. Lawrence Island in the Native Village of Savoonga on 
August 25, 2018. During this field hearing on ``Overcrowded Housing,'' 
we heard about the need for more water and sanitation infrastructure in 
the native village. Following the field hearing, committee staff and I 
were able to tour Savoonga and see what it is like to live in such 
severe overcrowded conditions, to see 21 people sharing a small three 
bedroom home. So while we are talking today about the need for water 
infrastructure, addressing pandemic vulnerabilities also requires 
addressing housing shortages and overcrowding, which I know is an issue 
for all of Indian country.
    With that, I'm glad to welcome all of our witnesses today.
    One of the witnesses today is Ms. Valerie Davidson, who can provide 
us with testimony that will be invaluable as the Senate begins to 
consider any infrastructure legislation. She is the Interim President 
of the Alaska Native Tribal Health Consortium. Ms. Davidson is Yup'ik 
and an enrolled tribal citizen of the Orutsararmiut Traditional Native 
Council, located in Bethel. She previously served as Lieutenant 
Governor of Alaska, Commissioner of the Alaska Department of Health and 
Social Services, and ANTHC's Senior Director of Legal and 
Intergovernmental Affairs. In her position as Interim President, Ms. 
Davidson oversees the administration of ANTHC's statewide health and 
social services that are offered to the Alaska Natives and American 
Indians living in Alaska.
    Thank you, Ms. Davidson, for taking the time today to virtually 
testify before the committee.
    With that Mr. Chairman, I turn back to you for continuation of the 
oversight hearing.

    The Chairman. Senator Cantwell?

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thanks, Mr. Chairman, and thanks for 
holding this important hearing. I would be remiss if I didn't 
thank the Vice Chair for her work on the Yakima Basin project, 
which is a Columbia Basin project that really helped in 
establishing management through collaboration. I see the Warm 
Springs on the agenda here today.
    We have very complicated management issues as we face also 
changes to climate. I hope that we will hear from our witnesses 
today about what can facilitate better consensus-based 
management solutions, how we can work together, and certainly 
on this next infrastructure package how we can help improve the 
irrigation systems that are so integral in some of the tribes 
in Indian Country across the State of Washington.
    Thank you.
    The Chairman. Thank you, Senator Cantwell.
    We will turn now to our witnesses. We have a really august 
group of witnesses from throughout the United States. We have 
the Honorable Raymond Tsumpti, Chairman of the Tribal Council 
of the Confederated Tribes of Warm Springs, Oregon; the 
Honorable Amelia Flores, Chairwoman, Colorado River Indian 
Tribes in Arizona; the Honorable Valerie Davidson, Interim 
President, Alaska Native Tribal Health Consortium in Alaska; 
and Mr. Jason John, Director of the Navajo Department of Water 
Resources in the Navajo Nation.
    All are appearing virtually. I want to remind our witnesses 
that your full written testimony will be made part of the 
official hearing record. Please keep your statement to no more 
than five minutes, so that our members will have time for 
questions.
    And we will start with the Honorable Amelia Flores, 
Chairwoman, Colorado River Indian Tribes, in Arizona. Ms. 
Flores?

  STATEMENT OF HON. AMELIA FLORES, CHAIRWOMAN, COLORADO RIVER 
                         INDIAN TRIBES

    Ms. Flores. [Greeting in Native tongue.] Mr. Chairman, 
Madam Vice Chair, I want to begin by thanking the Committee for 
this wonderful opportunity. It is an honor to be here as the 
newly elected, and first, Chairwoman of the Colorado River 
Indian Tribes.
    Our people are the people of the river. The river runs 
through us in the same way that it runs through our reservation 
in eastern California and western Arizona. It the cornerstone 
of our culture, and the foundation of our economy. It is 
essential to who we are as a people.
    That is why I am honored to share how the United States can 
improve access to efficient water infrastructure. The first 
thing you need to know: you don't need to just throw money at 
the problem. It helps of course, but it is not the only thing 
holding tribes back.
    CRIT has dealt with a number of legal and policy barriers 
that make efficient water infrastructure challenging. For our 
tribe, the most consequential barrier is the Indian Non-
Intercourse Act. As a result of this law, CRIT cannot lease 
water without Congressional approval.
    Congress has given that right to many tribes in their water 
settlements. But for those of us with decreed water rights, we 
still can't lease our water. If given that right, we would use 
our water to preserve the life of the river, and reinvest the 
proceeds to improve the Colorado River Irrigation Project, or 
CRIP.
    CRIT also faces continuing challenges with the operation of 
the irrigation project. This project is owned by the Federal 
government and operated by the BIA. Routine project maintenance 
often goes unfinished because the BIA fails to charge water 
users enough to cover the basic costs of maintenance. The tribe 
asks the BIA year after year to raise these rates, essentially 
taxing ourselves, so that the work can get done. But we have 
had minimal success even as the maintenance backlog grows.
    In the most extreme scenario, in 2019, the poor operational 
protocols at the project resulted in the BIA failing to divert 
more than 80,000 acre-feet of our water to the reservation. To 
put that in context, Mr. Chairman, that is only a little less 
than the City of Hilo uses in an entire year. In other words, 
better management would result in our existing infrastructure 
lasting longer and being more efficient.
    I am grateful that Congress has begun to focus on these 
small changes. In 2019, Congress updated the WaterSMART program 
so that it better aligns with tribal water rights. Since then, 
we have received three grants to improve our irrigation 
project. These grants will help conserve more than 3.2 billion 
gallons of water in the coming years.
    As this Committee knows, significant change only comes with 
meaningful consultation. Fortunately, the water stakeholders in 
the Colorado River Basin are catching on to the importance of 
consulting with tribes. Under the Intra-Arizona agreement to 
implement the Drought Contingency Plan, our tribe and the Gila 
River Indian Community were able to provide Arizona water users 
with a bridge water supply for the DCP. We were the ones that 
brought solutions to the table.
    The inverse is also true: when tribes are excluded, ill-
informed decisions follow. The Bureau of Reclamation's 2007 
Interim Guidelines were based on an understanding of non-tribal 
water, even though the tribes control 20 percent of the water 
rights from the Colorado River. As a result, on-river tribes 
have difficulty participating in programs established by the 
Guidelines.
    As prolonged drought and climate change continue to impact 
our basin, it is my hope that this Committee will insist that 
Secretary Haaland and her staff engage tribal leaders as they 
rework these guidelines in the coming years.
    Finally, I would be remiss not to mention the outstanding 
financial needs to support water infrastructure in Indian 
Country. The programmatic, annually appropriated funding for 
this work is not sufficient to provide access to clean water 
for all tribal nations. I know our new Senator, Mark Kelly, has 
made this a priority in his short time there in D.C., and I am 
grateful for his role in securing new funding for clean water 
projects in the American Relief Plan.
    I also want to put vast needs for water project funding 
into context. If CRIT spent 100 percent of our funds from the 
American Relief Plan, it would only pay for 49 percent of the 
work needed on our irrigation project. And of course, there is 
no way that we can do that. We need to spend that funding on 
government services.
    [Phrase in Native tongue.] I will conclude my remarks here. 
I appreciate the Committee's attention to water infrastructure 
and would be happy to answer any questions.
    [The prepared statement of Ms. Flores follows:]

 Prepared Statement of Hon. Amelia Flores, Chairwoman, Colorado River 
                             Indian Tribes
    Mr. Chairman, Madame Ranking Member, I want to begin by thanking 
the Committee for this wonderful opportunity. It is an honor to be here 
as the newly elected and the first Chairwoman of the Colorado River 
Indian Tribes.
    As you know, I am Amelia Flores, Chairwoman of the Colorado River 
Indian Tribes. The Colorado River runs through our reservation in 
Eastern California and Western Arizona.
    The Colorado River is the cornerstone of our culture, the 
foundation of our economy, and most fundamentally, essential to our 
life in the Mohave Desert. That is why I am honored to share our 
experiences and provide suggestions on how Congress and the 
Administration may improve access to efficient water infrastructure for 
tribes.
    The first thing you need to know: Congress does not need to simply 
throw money at the problem. Money helps of course. But it is not the 
only thing holding tribes back from harnessing the full potential of 
our water resources.
    Congress and the Administration need to begin by examining the 
legal and policy barriers that exist as a result of excluding Tribal 
Governments from the decisionmaking processes.
    We have dealt with a number of these barriers at CRIT in recent 
years.
    CRIT is fortunate to have a substantial water right. Our water 
right was confirmed by the United States Supreme Court as a part of the 
Arizona v. California litigation. That makes our water right among the 
most secure in the western United States; but it also means it is among 
the least flexible.
    As a result of the Indian Non-Intercourse Act, tribal water--which 
is a federal trust asset--cannot be leased without Congressional 
authorization.
    Congress has given that right to many tribes in the context of 
water settlements. But those of us with decreed water rights, we still 
can't lease our water.
    We can lease our land for agriculture, for commercial or industrial 
development. And we can lease land for resource use such as timber 
harvesting or mineral, oil or gas extraction. But we cannot lease our 
renewable water supply without Congressional approval.
    A congressionally approved leasing program will provide needed 
revenue for governmental programs and will incentivize tribesto use 
water more efficiently. I know that our council would use water savings 
to help sustain and expand our habitat preserve along the Colorado 
River, and we would lease water to our neighbors who may soon be facing 
water restrictions due to the drought. I am certain other tribes will 
also find beneficial uses for their water that will provide economic 
benefits as well.
    CRIT also faces continuing challenges with the operation of the 
Colorado River Irrigation Project (CRIP). This Project is owned by the 
federal government and operated by the BIA. It exclusively serves 
farmland on our reservation.
    To say it mildly, the maintenance and operation of the Irrigation 
Project on our reservation leaves much to be desired.
    Routine maintenance often goes unfinished because the BIA lacks the 
funds to complete the work. These are not funds appropriated by 
Congress; these are funds paid by our farmers for the operation and 
maintenance of the Project. We ask the BIA year after year to raise 
these rates--essentially taxing ourselves--so that the maintenance work 
can get done. We have only had minimal success--there is still more 
than $75 million in deferred maintenance on this Project.
    In the most extreme scenario, in 2019, the poor operational 
protocols at the Project resulted in the BIA failing to divert more 
than 80,000 acre-feet of our water to our reservation. To put that in 
context, Mr. Chairman, that is only a little less than the City of Hilo 
uses in an entire year. And Madame Vice Chair, that is about twice as 
much as is used in Juneau in an entire year.
    In other words, better management of these systems would result in 
our existing infrastructure lasting longer and being more efficient.
    I am grateful that Congress has begun to recognize that small 
changes in policy can result in meaningful change for tribal 
governments. In 2019, as a part of the John Dingell Conservation, 
Management and Recreation Act, updates to the Bureau of Reclamation's 
WaterSMART program finally took into account the unique nature of 
tribal water rights. As a result, our tribe has received three grants 
that help us improve water measurement and delivery and prevent 
seepage. These grants will help conserve more than 3.2 billion gallons 
of water in the coming years.
    As this Committee knows, significant change only comes after 
meaningful consultation. Fortunately, I believe that the water 
stakeholders in the Colorado River Basin are catching on to the 
importance of consulting with tribes.
    The Intra-Arizona agreement to implement the Drought Contingency 
Plan was an example of what happens when tribal governments are at the 
table. Under that agreement, the State of Arizona has to dramatically 
reduce its use of Colorado River water. The cuts are so dramatic that 
without short term bridge supplies, many entities would have been 
immediately put out of business.
    Fortunately, our tribe and the Gila River Indian Community were 
able to provide Arizona water users with a bridge supply for the DCP. 
We were the ones that brought solutions to the table.
    The inverse is also true: when tribes are excluded, ill-informed 
decisions follow. Consider the Bureau of Reclamation's 2007 Interim 
Guidelines that help govern the operations of the Colorado River.
    The Guidelines were based on an understanding of non-tribal water 
rights and water use. As a result, tribes, which control more than 20 
percent of the total water rights from the Colorado River, have 
difficulty participating in programs established by the 2007 Interim 
Guidelines.
    As prolonged drought and climate change continue to impact our 
basin, tribes must be a part of the planning and program development 
process. In the coming years, this new Administration will need to 
negotiate new operational procedures to replace the 2007 Guidelines. It 
is my hope that this Committee will insist that Secretary Haaland and 
her staff engage tribal leaders at all stages of this work.
    Finally, I would be remiss not to mention the outstanding financial 
needs to support water infrastructure in Indian Country.
    The programmatic, annually appropriated funding for this work has 
not been sufficient to result in access to clean water for all tribal 
nations. I know our new Senator, Mark Kelly, has made this a priority 
in his short time here in D.C., and I am grateful for his role in 
securing new funding for clean water projects in the American Relief 
Plan.
    I also want to put vast needs for water project funding into 
context: if CRIT spent 100 percent of the funds we are likely to 
receive from the ARP on a single water infrastructure project, it would 
only cover 49 percent of the project cost. And of course, there is no 
way that we can do that. We need to spend much of that funding to 
support our government services, which have faltered over the last year 
due to the pandemic.
    The last program I want to mention is the IRRIGATE Fund, put 
forward by former Chairman John Barrasso. This fund helps the BIA 
address the extraordinary deferred maintenance needs on BIA irrigations 
projects. I appreciate that you, Ranking Member Murkowski, and former 
Chairman Tom Udall, provided funding for this program in the 
Appropriations Committee. That needs to continue in the coming years.
    I will conclude my remarks here. I appreciate the Committee's 
attention to water infrastructure and would be happy to answer any 
questions from Committee members now, or provide written responses for 
the record in the days to come. Thank you again for this opportunity.

    The Chairman. Thank you very much. And thank you for being 
exactly five minutes.
    I will now introduce the Honorable Raymond Tsumpti, 
Chairman of the Tribal Council, Confederated Tribes of Warm 
Springs, Oregon.

   STATEMENT OF HON. RAYMOND TSUMPTI, CHAIRMAN, CONFEDERATED 
                     TRIBES OF WARM SPRINGS

    Mr. Tsumpti. Thank you. My name is Raymond Tsumpti, Sr. I 
am currently Chairman, in my ninth term here.
    Warm Springs is located in the central high desert of 
Oregon. The Tribe provides water to approximately 4,500 
residents here. We are experiencing difficulties in providing 
water to our members. Aged water lines, antiquated pumps to get 
water from our towers, I think they call that the pressure 
relief valve failures.
    All this leads to having the community boil water before 
they use it. That is pretty frequent lately, within the last 
two or three years.
    We have three of four water delivery sites that require 
some major upgrades or replacement, especially with the pumps. 
We can't find parts for them.
    It has been told here that to maintain these systems, it is 
going run probably $5 million to $6 million to do that. And the 
overall fixture is estimated to run anywhere from $40 million 
to $50 million to do that.
    My testimony does relate to high unemployment. That is the 
reason we don't have taxpayers to invest in our system.
    So all in all, that is the short of it. I know we are 
running a little behind time here because of some technical 
difficulties. I will be open for any questions.
    [The prepared statement of Mr. Tsumpti follows:]

  Prepared Statement of Hon. Raymond Tsumpti, Chairman, Confederated 
                         Tribes of Warm Springs
    Thank you for this opportunity to share the dire situation we are 
experiencing on the Warm Springs Reservation in Oregon. My name is 
Raymond Tsumpti and I serve as the Chairman of the Warm Springs Tribal 
Council and have served on Council for seven of the eight last terms 
since 1992.
    The Warm Springs Reservation is the largest in Oregon at 640,000 
acres. That's about 15 times larger than the District of Columbia. It 
spans from snow-capped Cascade mountains to the salmon-bearing 
Deschutes River--with forests and high desert between.
    The Tribe provides water to approximately 4,500 people on 
reservation. For years, we have dealt with harmful and expensive 
obstacles in water storage, water delivery and water treatment. In 
2019, the EPA issued an emergency order regarding our 40-year old water 
treatment facility. Later that summer, a primary waterline broke. For 
three months, residents were advised not to drink water from their taps 
without boiling it first.
    There are many federal programs to assist tribes. But they have not 
individually or collectively been able to meet the magnitude of 
infrastructure challenges on our reservation. Three of our four water 
delivery systems require major upgrades or replacement. The Tribes are 
facing a minimum cost of $5-6 million to simply maintain existing 
systems at status quo. To provide for future improvements to meet the 
growing population, the Tribes face a cost of $40-50 million for water 
infrastructure.
    Paying for the physical infrastructure is one problem. Maintaining 
it over the long-term is another. Even if we replaced every foot of 
water pipe and our treatment facility, we will be challenged to afford 
repairs and maintenance into the future.
    Most of our tribal population lives in an arid portion of Oregon's 
high desert. The town of Warm Springs has the second highest incidence 
of poverty in Oregon. The reservation is suffering from dramatically 
high unemployment--which has exceeded 60 percent for many years. Our 
forest products mill closed, our resort closed and other tribal 
enterprises have been crippled by COVID. The pandemic has hit us hard 
at Warm Springs.
    After some patchwork repair on our water system, water system 
failures returned in summer 2020 in the midst of COVID-19. Many of our 
families are crowded into small dwelling units. We have places on the 
reservation where people can't even wash their hands. The water 
infrastructure is literally crumbling. Some of the pipes are made of 
wood and clay. We regularly face ``low pressure'' or ``no water'' 
events that trigger boil-water notices.
    With the extreme poverty on the reservation, we simply do not have 
a ratepayer base to invest in water infrastructure. We have worked with 
an array of federal and state agencies just to cobble together a 
``band-aid'' approach to keeping clean water flowing in the near term.
    We have worked with the Oregon congressional delegation to provide 
new authorities to help tribes like Warm Springs. They have introduced 
many bills, including Senator Wyden's ``Western Tribal Water 
Infrastructure Act''--which has been referred to this Committee.
    We know that Warm Springs is not alone facing these water 
challenges. We also know there must be a better way for Tribes to seek 
emergency assistance from the federal government to provide basic clean 
water to our members. Likewise, many tribes will need help maintaining 
and operating that infrastructure over time.
    Again, thank you for holding today's hearing and jump-starting a 
federal dialogue about the ongoing water emergency facing tribes like 
Warm Springs all across the country.

    The Chairman. Thank you very much, Mr. Chairman. We will do 
our questions after all the testifiers have provided testimony.
    The next is the Honorable Valerie Davidson, Interim 
President of the Alaska Native Tribal Health Consortium.

       STATEMENT OF HON. VALERIE NURR'ARAALUK DAVIDSON, 
        INTERIM PRESIDENT, ALASKA NATIVE TRIBAL HEALTH 
                           CONSORTIUM

    Ms. Davidson. Good morning, Mr. Chair, and thank you, Mr. 
Chair and members of the Committee. My name is Valerie 
Nurr'araaluk Davidson, and I serve as interim president of the 
Alaska Native Tribal Health Consortium.
    We are a statewide tribal health organization that serves 
all 229 federally recognized tribes here in Alaska, and all 
Alaska Native and American Indian people here. We also jointly 
manage the Alaska Native medical center along with Southcentral 
Foundation, which is the tertiary hospital that serves our 
statewide needs.
    I have to commend this Committee for holding this hearing, 
so that we really have the opportunity to address the water 
infrastructure needs for Native communities, so that they can 
properly heard and really addressed in this 117th Congress.
    My testimony today is going to focus on three aspects of 
sanitation infrastructure in Native communities. The first, the 
lack of sanitation infrastructure's impact on health; the 
second, the overall unmet sanitation need; and third, the 
impacts of climate change on that infrastructure. It will also 
offer some recommendations of how Congress and this Committee 
can help to address those issues.
    The impact on health is really, really significant. We have 
known that all along. But the pandemic has really highlighted 
the longstanding inequities in available sanitation 
infrastructure and serves in many of our Alaska Native 
communities. We heard repeatedly during the pandemic that you 
can prevent COVID-19 by washing your hands, by cleaning and 
disinfecting surfaces and avoiding close contact with others.
    Unfortunately, you can imagine how heartbreaking it is to 
be in a rural community in Alaska where you don't have running 
water, and you hear constantly that washing your hands and 
disinfecting is really critical and to know that you, as a 
parent or a person in that community can't do the most basic 
thing to keep your family safe, simply because you don't have 
running water.
    Science also backs this up. The CDC did a study in August 
2020 that showed that American Indian and Alaska Native people 
were among the highest risk groups for COVID-19, with an 
incidence rate that was 3.5 times than that of non-Hispanic 
whites.
    Here in the State of Alaska, the State data indicates that 
Alaska Native and American Indian people are five times more 
likely to be hospitalized due to COVID-19, and were 
unfortunately four times more likely to die of COVID-19 than 
the rest of the population in Alaska.
    We already know that adequate water and sanitation 
facilities help prevent skin and respiratory infections. In the 
CDC study that was done in the region that I am from shows a 
correlation between lower hospitalization rates for respiratory 
and skin infections. What we found is that infants in 
communities without adequate sanitation facilities are 11 times 
more likely to be hospitalized for respiratory infections and 
five times more likely to be hospitalized for skin infections.
    It is really easy to get lost in those statistics, so let 
me put it another way. We expect that one out of every three of 
our infants every year in one of those communities will be 
hospitalized simply because they don't have running water. 
Since our average village size is only about 300 to 350 people, 
that means that baby is going to be medevac'd to the nearest 
hospital.
    My youngest daughter contracted RSV, or respiratory 
syncytial virus, when she was eight months old and she was 
hospitalized for nine days. She now has a compromised 
respiratory system. She has asthma, and she was hospitalized 
eight additional times for pneumonia by the time she was seven 
years old, which is unacceptable in our Country.
    While improvements have been made over the last 40 years, 
over 40 percent of our rural Alaska Native homes still lack 
running water. And 32 of our almost 200 communities are still 
unserved. Many communities typically have a washeteria 
building. It is one building that combines water treatment, 
laundromat, toilets and showers that the entire community uses.
    What that means from a practical perspective is that those 
communities haul their water from the washeteria in a five-
gallon clean bucket, and we haul our raw sewage from our home 
in a different five-gallon bucket. Unfortunately, some of our 
communities continue to be unserved simply because of the high 
construction costs.
    So what we are recommending is that we can do several 
things. The latest IHS sanitation deficiency system showed that 
we have an unidentified need, a need of $3.3 billion in 
sanitation construction needs nationwide. But almost $2 billion 
of that need is just in Alaska.
    So we know that we desperately need at least $1 billion in 
any future infrastructure bill for a sanitation facilities 
construction program. We should prioritize sanitation for these 
communities that are in the greatest need of sanitation 
facilities, those who have not yet been served. The IHS cost 
caps need to be waived for that new funding, so that unserved 
communities can access that sanitation funding.
    Then finally, we need to make sure that we can do what we 
can to preserve the infrastructure that already exists in our 
Native communities.
    I believe, Mr. Chair, that I may be over time, so I will 
stop there and be available for additional questions.
    Thank you.
    [The prepared statement of Ms. Davidson follows:]

   Prepared Statement of Hon. Valerie Nurr'araaluk Davidson, Interim 
           President, Alaska Native Tribal Health Consortium
    My name is Valerie Nurr'araaluk Davidson. I serve as the Interim 
President of the Alaska Native Tribal Health Consortium (ANTHC), a 
statewide tribal health organization that serves all 229 tribes and all 
Alaska Native and American Indian people in Alaska. ANTHC and 
Southcentral Foundation co-manage the Alaska Native Medical Center, the 
tertiary care hospital for all Alaska Native and American Indian people 
in the state.
    I commend this Committee for holding this hearing, so that the 
water infrastructure needs for Native communities can be properly heard 
and addressed in this 117th Congress.
    My testimony will focus on three aspects of sanitation 
infrastructure in Native communities: (1) the impact that lack of 
sanitation infrastructure has on health; (2) the overall unmet 
sanitation need; and (3) the impacts of climate change. Additional 
supporting documents, referred to in my testimony, are attached for 
reference.
Impact on Health
    The lack of available sanitation infrastructure and services in 
many Alaska Native communities has long been lacking. The pandemic has 
highlighted these inequities.
    Adequate sanitation infrastructure has never been more critical 
than it is now. As we've heard constantly, during this pandemic, COVID-
19 can be prevented by hand washing, avoiding close contact with 
others, and cleaning/disinfecting surfaces. The lack of water service 
in many rural Alaska villages creates extreme challenges in practicing 
two of these three basic prevention techniques, and overcrowded housing 
in these communities makes the third prevention technique--avoiding 
close contact--equally challenging.
    An August 2020 Centers for Disease Control and Prevention (CDC) 
study (see attachment #1) * showed that Alaska Natives and American 
Indians were among the highest risk groups for COVID-19 with an 
incidence rate that is 3.5-times greater than that of non-Hispanic 
whites. Further, additional State of Alaska data indicate that Alaska 
Native and American Indian people are 5-times as likely to be 
hospitalized due to COVID-19 and have a mortality rate nearly 4-times 
that of the white population in Alaska.
---------------------------------------------------------------------------
    * The information referred to has been retained in the Committee 
files.
---------------------------------------------------------------------------
    The importance of adequate water and sewer to prevent skin and 
respiratory infections is very clear. A 2008 CDC study (see attachment 
#2) * found that ``the hospitalization rates in rural Alaska showed a 
typical dose-response group relation in which lower rates were related 
to progressively higher levels of in-home water service.'' Showing that 
the more sanitation services that are available in Native communities, 
the lower hospitalizations are likely to be for respiratory and skin 
infections.
    The study also found that infants in low-water service rural Alaska 
villages were 5-times more likely to be hospitalized for lower 
respiratory tract infections and 11-times more likely to be 
hospitalized for pneumonia compared to the general U.S. population. 
Many of these children are likely to have ongoing health problems due 
to these infections.
    It's easy to get lost in these statistics, so let me put it another 
way: we expect that one out of every 3 infants will be hospitalized 
every year, due to lack of running water. Our average village size is 
300-350 people, so that means that baby must be medevaced to the 
nearest hospital.
    My youngest daughter contracted respiratory syncytial virus (RSV) 
when she was 8-months-old and was hospitalized for 9 days. She now has 
a compromised respiratory system, has asthma and was hospitalized 8 
additional times for pneumonia by the time she was 7-years-old.
Sanitation Infrastructure Needs
    Dramatic improvements have been made to the sanitation 
infrastructure of rural Alaska over the past 40 years, but roughly 20 
percent of rural Alaska Native homes still lack in-home piped water. 
Thirty-two of the 190 rural Alaska Native communities are still 
unserved, lacking access to in-home water and sewer. These communities 
typically have a washeteria building (a combination water treatment 
plant, laundromat, with toilets and showers) that the entire community 
uses. Most of these communities haul their water from the washeteria to 
their home in a 5-gallon bucket, and haul their sewage from their home 
in a different 5-gallon bucket.
    Many communities are unserved due to the high construction costs. 
The Indian Health Service (IHS) has established cost caps per home 
that, when approached, both decreases the priority of the project in 
the scoring system and limits the amount of project funding available, 
effectively limiting the community from accessing in-home water and 
sanitation services. We recommend that the IHS eliminate cost caps for 
projects that would provide piped water and sewer for these unserved 
communities. Otherwise, these communities may never be served.
    The COVID-19 pandemic highlights the need for community wide 
response and protection. The current IHS guidelines require 
contributions for projects that serve any non-Native households or 
other public buildings, such as a school. Without contributions, even 
communities with almost 100 percent Native populations could have 
essential infrastructure projects needlessly delayed or cancelled if a 
pro rata contribution cannot be made. This is contrary to the 
objectives of the program and will be a major barrier to serving these 
communities should funding become available through the IHS.
    Once built, sustainable operation of rural water and sewer systems 
is critical to fully provide the public health benefit to the 
community. On a positive note, for the first time IHS has been provided 
funding specifically for technical assistance, training and guidance 
for sanitation operators and families. The $3 million provided in the 
FY2021 appropriation will be very helpful in establishing culturally 
relevant training of operators and users of sanitation systems, but as 
this funding is distributed nationwide, it is likely additional funding 
will be needed.
    The latest IHS Sanitation Deficiency System data identifies a need 
of nearly $3 billion for sanitation construction projects in Indian 
Country, with $1.8 billion of that need in Alaska. Despite this need, 
the IHS sanitation facilities construction appropriation for fiscal 
year 2021 was only $196.6 million. IHS sanitation facilities 
construction funding needs to be greatly increased to address the 
inadequate sanitation infrastructure in Alaska Native and American 
Indian communities.
    The expected upcoming infrastructure bill may be a once-in-a-
generation opportunity to address the sanitation infrastructure needs 
in Indian Country. Fully funding the entire IHS sanitation need in the 
infrastructure bill is not an unreasonable ask given the importance of 
sanitation infrastructure in combating the current pandemic.
Impacts of Climate Change on Sanitation Infrastructure
    Throughout Alaska, environmental threats such as flooding, erosion, 
and permafrost thaw pose an imminent risk to tribal infrastructure, 
including homes, schools, clinics, and sanitation facilities. For 
example, in May of 2020, a family had to abandon their home in 
Chefornak, Alaska because thawing permafrost created a large pit 
beneath the structure, forcing the family to move in with relatives, 
resulting in 16 people sharing two small homes--without running water 
or flush toilets--all of this during the COVID-19 pandemic. In 
Shishmaref, Alaska, a November 2020 storm eroded between 30 to 80 feet 
of land along approximately 5,000 feet of coastline, causing $6.5 
million of damage to the only access road to the community landfill. 
These are just two of many similar, and increasing, impacts.
    Despite the dire need, most federal programs and policies relevant 
to climate change adaptation inadvertently disadvantage Alaska's small 
tribal communities. Adequate funding to prevent the destruction of 
infrastructure is simply not accessible to these small and impoverished 
communities.
    Statewide, approximately $4.3 billion will be required to 
proactively mitigate damage to existing infrastructure in 144 
environmentally threatened Alaska communities over the coming decades. 
An $80 million annual funding gap exists over the next 10 years to 
mitigate acute infrastructure threats and to avoid a more expensive 
disaster response. We recommend that Congress increase support to the 
two federal programs proven to be most effective in supporting tribal 
communities in Alaska with climate change adaptation: (1) the Denali 
Commission Village Infrastructure Protection Program has been the 
single most effective financial mechanism for supporting 
environmentally threatened communities in Alaska. Support for the 
Denali Commission should be increased to support protect-in-place, 
managed retreat, and community-led relocation projects; and (2) the BIA 
Tribal Climate Resilience Program is currently the only national grant 
program readily accessible to our tribes for climate adaptation and 
resiliency planning (see attachment #3). * The funding for this program 
should be significantly increased to adequately address the needs.
---------------------------------------------------------------------------
    * The information referred to has been retained in the Committee 
files.
---------------------------------------------------------------------------
Conclusion
    It is clear that health equity in our Native communities can never 
be achieved without adequate sanitation facilities and access to basic 
water and sanitation services. To address this, I urge support for the 
inclusion of at least $1 billion in any future infrastructure bill for 
the IHS Sanitation Facilities Construction program, and that such 
funding be prioritized to tribal communities that are in the greatest 
need of sanitation services. Additionally, IHS cost caps need to be 
waived for this new funding so that unserved communities can access the 
sanitation funding. Further, increased support for programs to mitigate 
the impacts of climate change in Native communities is crucial to 
addressing infrastructure in Native communities.
    Thank you for the opportunity to provide testimony.

    The Chairman. Thank you very much.
    Now we have Mr. Jason John, Director of the Navajo 
Department of Water Resources, from the Navajo Nation.

 STATEMENT OF JASON JOHN, DIRECTOR, NAVAJO DEPARTMENT OF WATER 
                    RESOURCES, NAVAJO NATION

    Mr. John. [Greeting in Native tongue.] Chairman and 
Committee members, thank you for this opportunity to discuss 
water infrastructure needs for the Navajo Nation. I am Jason 
John, Director of the Navajo Nation Department of Water 
Resources.
    The Department is delegated with many responsibilities to 
assist and coordinate water resource development on the Navajo 
Nation. This includes working with appropriate Federal programs 
across Arizona, New Mexico, and Utah. While today's discussion 
will focus on the Navajo Nation's domestic and municipal water 
development needs, I have also shared information on 
agricultural, livestock, and environmental water needs.
    The Navajo Nation is committed to improving the standard of 
living on the reservation. Access to land, water, and 
electricity are critical to a better quality of life. Water 
development is one of our highest priorities, as exemplified by 
the Navajo Nation investing over $200 million of its own funds 
over the last several years. The collective goal should be to 
provide the necessary infrastructure so that thousands of 
families can live a better life.
    In 2020, the Navajo Nation estimated almost $4 billion in 
water-related development needs. A majority of the funding, 
over $2.4 billion, is for critically needed domestic and 
municipal projects.
    The need for water for a better quality of life is 
connected to the critical need for additional housing and 
electricity. About 19,000 homes on the Navajo Nation have 
relatives and family living in them who could have separate 
housing if housing were available and affordable.
    Furthermore, due to the low income of many families, many 
existing homes lack the necessary plumbing for water, 
wastewater, and wiring for electricity which leads to a delay 
in providing critical water services once funding is available. 
Additional funding and program support are needed to construct 
additional homes and upgrade existing homes to receive water 
and electricity.
    There is a need to obtain better information about the 
ongoing water-related sanitation deficiencies in the Navajo 
Nation. The Navajo Nation estimates a high percentage, 30 
percent to 40 percent of homes without access to water. The 
Indian Health Service currently has staff shortages that hinder 
obtaining updated information quickly for the needed surveys. 
water and wastewater facilities on the Navajo Nation. The IHS 
currently has staff shortages that hinder obtaining updated 
information quickly for the needed surveys. Additional 
resources are needed to acquire updated information for the 
ongoing water-related sanitation deficiencies in the Navajo 
Nation.
    There are challenges at every phase of water development in 
the Navajo Nation. There is a Federal nexus at almost every 
stage of domestic water development. There needs to be a review 
of and improvements to the current staffing levels, funding, 
and policies imposed upon programs that assist in the pre-
construction and construction activities for water related 
projects.
    Federal agencies with the expertise may need to dedicate 
resources to assist existing programs to efficiently review and 
permit infrastructure projects to expend funds allocated 
through the CARES Act and the American Rescue Plan. Tribal 
programs involved in the review and permitting of water 
infrastructure need additional funding, staffing, and adequate 
workspace to assist water development efficiently.
    Federal programs can assist the Navajo Nation with capacity 
building. This is especially important now with both the CARES 
Act and American Rescue Plan funding.
    There is insufficient funding for domestic water 
infrastructure. There is more than half a billion dollars in 
current need for domestic water projects on the Navajo Nation. 
While the Indian Health Service has done good work to provide 
water with their limited funding and staffing, the needs far 
exceed what the program can accomplish without additional 
staffing and project funding. Adequate funding needs to be 
provided to get projects shovel ready so that more projects can 
be built in less time when funding becomes available.
    The longer-term goal for the Navajo Nation is to provide 
water for population growth and economic development. The 
Navajo Nation has been working on analyzing the existing water 
systems to determine their short-term, mid-term, and long-term 
capital improvement plans to provide water for future 
population growth and economic development.
    In some cases, groundwater has to be imported from 
neighboring communities or reliable surface water supplies such 
as the San Juan River. The need to import water results in 
additional time and cost to build water projects.
    The Navajo Nation's long-term strategy includes additional 
access and use of the Colorado River supplies due to limited 
groundwater resources in many regions. The Navajo Nation 
participated in the Colorado River Basin Study through the 
Colorado River Basin Ten Tribes Partnership Tribal Water Study. 
Chapter 7 of that report described the challenges and 
opportunities to tribal water development.
    Some of the potential actions from the study that I wanted 
to emphasize are as follows.
    Prioritize the identification of legal and regulatory 
constraints to full use of tribal water. Repair, rehabilitate, 
or improve aging infrastructure. Work with BIA to develop 
programmatic right-of-way agreements to simplify obtaining 
rights-of-way for domestic, commercial, municipal, and 
industrial projects. Advocate for tribal waivers of the 
requirement for matching funds in Federal water-related funding 
programs. Conduct more detailed and comprehensive assessments 
of tribal water infrastructure demands to inform funding 
agencies better and promote increased funding through the 
Federal budget process.
    There are far too many projects to discuss in detail today, 
but I invite members of this Committee to follow up with me 
about specific programs or projects. Overcoming the legacy of 
neglect and infrastructure deficits on the Navajo Nation will 
require an aggressive water development program.
    I look forward to working with you. [Phrase in Native 
tongue.] Thank you.
    [The prepared statement of Mr. John follows:]

Prepared Statement of Jason John, Director, Navajo Department of Water 
                        Resources, Navajo Nation
Introduction
    Chairman Schatz and Committee members, thank you for this 
opportunity to discuss water infrastructure needs for the Navajo 
Nation. I am Jason John, Director of the Navajo Nation Department of 
Water Resources. I have worked for the Navajo Nation for 20 years. The 
Navajo Department of Water Resources (NDWR) is delegated with many of 
the responsibilities to assist and coordinate water resources 
development on the Navajo Nation across the over 27,000 square miles. 
The assistance and coordination includes working with appropriate 
Navajo Nation, local, state, and federal programs across Arizona, New 
Mexico, and Utah. While today's discussion will focus on the Navajo 
Nation's domestic and municipal water development needs, I have also 
shared information on agricultural, livestock, and environmental water 
needs.
Goal
    The Navajo Nation is committed to improving the standard of living 
on the reservation. Access to land, water, and electricity for 
families, government programs, public institutions, and businesses are 
critical to a better quality of life. Recognizing that water is 
integral to human health and economic development, the Navajo Nation 
has placed water development as one of its highest needs. It is also 
one of its highest priorities, as exemplified by the Navajo Nation 
investing over $200 million of its funds over the last several years. 
The collective should be to provide the necessary infrastructure so 
that thousands of families can live a better life.
Need
    In 2020, the Navajo Nation estimated almost $4 billion in water-
related development needs, as shown in Table 1. A majority of the 
funding, over $2.4 billion, is for critically needed domestic and 
municipal projects (bolded in Table 1).

             Table 1. Navajo Nation Water Development Needs
------------------------------------------------------------------------
                 Category                               Total
------------------------------------------------------------------------
Large Regional Municipal Water Supply       $ 632,000,000
 Projects
Local Domestic and Municipal Water          $ 1,806,057,000
 Infrastructure
Livestock and Agriculture                   $ 682,410,000
Service to Water Haulers                    $ 8,000,000
Completion of Navajo Indian Irrigation      $ 760,000,000
 Project
Address Water Storage Facilities            $ 47,500,000
Drought Response and Mitigation             $ 10,000,000
Floodplain delineations and management      $ 10,000,000
Watershed Restoration Demonstration         $ 8,308,000
 Projects
Navajo Nation Total:                        $ 3,964,275,000
------------------------------------------------------------------------
Note: Table does not include funds needed for housing and electricity
  needs.

Connection to Housing and Electricity Needs
    The need for water for a better quality of life is connected to the 
critical need for additional housing and electricity. The 2010 census 
depicted approximately 40 percent of the 50,000 households across the 
Navajo Nation were multi-generational homes. About 19,000 homes on the 
Navajo Nation have relatives/family living in them who could have 
separate housing if housing were available and affordable. Furthermore, 
due to the low income of many families, many existing homes lack the 
necessary plumbing for water/wastewater and wiring for electricity 
which leads to a delay in providing critical water services once 
funding is available.

  <bullet> Additional funding and program support are needed to 
        construct additional homes and upgrade existing homes to 
        receive water and electricity.

Data for Domestic Water Needs
    There is a need to obtain better information about the ongoing 
water-related sanitation deficiencies in the Navajo Nation. The Navajo 
Nation estimates a high percentage (30 percent to 40 percent) of homes 
without access to water. The Indian Health Service (IHS) is the only 
agency with data specific to this need and estimates a lower 
percentage. Under the provisions of the Indian Health Care Improvement 
Act, Sections 1632(g)(2) and (3), the IHS conducts an annual review of 
all the sanitation deficiencies (water, sewer, solid waste) on the 
Navajo Nation in their Sanitation Deficiency System (SDS) database. In 
2020, IHS estimated that between 7,000 to 7,500 homes lacked adequate 
water and wastewater facilities on the Navajo Nation. The IHS currently 
has staff shortages that hinder obtaining updated information quickly 
for the needed surveys. During the COVID-19 pandemic, the U.S. Public 
Health Service Commissioned Corps, in coordination with IHS, was able 
to facilitate technical staff from other agencies to assist in 
acquiring updated information on homes identified for cistern water 
systems.

  <bullet> Additional resources are needed to acquire updated 
        information for the ongoing water-related sanitation 
        deficiencies in the Navajo Nation.

Development Challenges
    There are challenges at every phase of water development in the 
Navajo Nation. There is a federal nexus at almost every stage of 
domestic water development. The speed at which waterlines can be built 
to serve homes directly depends on the staffing levels and funding 
levels of federal and tribal programs involved in the planning, design, 
surveys, environmental permitting, cultural resource reviews, design 
reviews, and construction management.

  <bullet> There needs to be a review of and improvements to the 
        current staffing levels, funding, and policies imposed upon 
        programs that assist in the pre-construction and construction 
        activities for water-related projects.

  <bullet> Federal agencies with the expertise may need to dedicate 
        resources to assist existing programs to efficiently review and 
        permit infrastructure projects to expend funds allocated 
        through CARES Act and the American Rescue Plan.

  <bullet> Tribal programs involved in the review and permitting of 
        water infrastructure need additional funding, staffing, and 
        adequate workspace to assist water development efficiently.

  <bullet> Federal programs can assist the Navajo Nation with capacity 
        building; this is especially important now with both the CARES 
        Act and American Rescue Plan funding was and is to be 
        distributed directly to tribal nations, respectively.

Domestic Water Development
    There is insufficient funding for domestic water infrastructure. 
IHS is the primary federal program constructing domestic water lines. 
According to IHS, there is more than a half-billion dollars in the 
current need for domestic water projects on the Navajo Nation. While 
the IHS has done good work to provide water with their limited funding 
and staffing, the needs far exceed what this program can accomplish 
without additional staffing and project funding.

  <bullet> Adequate funding needs to be provided to get projects 
        ``shovel ready'' so that more projects can be built in less 
        time when funding becomes available.

Municipal Water Development
    The longer-term goal for the Navajo Nation is to provide water for 
population growth and economic development. , the domestic water 
program funding through the Indian Health Service authorized through 
P.L. 86-121 has limitations that do not allow sizing for long-term 
economic growth.
    The Navajo Nation has been working on analyzing the existing water 
systems to determine their short-term (5-10 years), mid-term (20 
years), and long-term (40 years) capital improvement plans to provide 
water for future population growth and economic development.
    When analyzing many of the plans over the years, it became apparent 
that some communities do not have the local water supply to meet 
existing and future needs. In some cases, groundwater has to be 
imported from neighboring communities or reliable surface water 
supplies such as the San Juan River. The need to import water results 
in additional time and cost to build water projects. The Navajo 
Nation's long-term strategy includes additional access and use of 
Colorado River supplies due to limited groundwater resources in many 
regions.
    The Navajo Nation participated in the ``Colorado River Basin Study 
through the Colorado River Basin Ten Tribes Partnership Tribal Water 
Study (2018)''. The report can be found at: 
WaterStudy.pdf(tentribespartnership.org). Chapter 7 of that report 
described the challenges and opportunities to tribal water development. 
Some of the potential actions from the study that I wanted to emphasize 
are as follows:

  <bullet> Work with federal and state agencies to prioritize the 
        identification of legal and regulatory constraints to full use 
        of tribal water, and to design ways to overcome constraints, 
        and to broaden opportunities that enable Partnership Tribes to 
        put their water to full beneficial and economic use

  <bullet> Address statutory and regulatory prohibitions to interstate 
        water management and use

  <bullet> Develop and draft proposed policy changes addressing legal 
        and regulatory constraints, as well as proposed legislation 
        that allows for water management flexibility for Partnership 
        Tribes

  <bullet> Explore opportunities for federal agencies and Partnership 
        Tribes to work together to develop the expertise, funding and/
        or resources for comprehensive water management planning and 
        implementation

  <bullet> Repair, rehabilitate, or improve aging infrastructure

  <bullet> Construct/improve storage facilities to permit or enhance 
        tribal access to storage

  <bullet> Draft and propose appropriate legislation to authorize the 
        interstate use of a tribe's reserved water rights

  <bullet> Work with BIA to develop programmatic right-of-way 
        agreements to simplify obtaining rights-of-way for domestic, 
        commercial, municipal, and industrial projects

  <bullet> Advocate for tribal waivers of the requirement for matching 
        funds in federal water-related funding programs

  <bullet> Create and improve relations with the adjacent communities 
        and establish a forum for bringing tribal and other communities 
        together to discuss issues of mutual concern

  <bullet> Conduct more detailed and comprehensive assessments of 
        tribal water infrastructure demands to inform funding agencies 
        better and promote increased funding through the federal budget 
        process

  <bullet> Broaden the access to federal expertise to finance water 
        infrastructure through specialized programs within the 
        Department of Interior and within the Environmental Protection 
        Agency

    Many of the current federal programs cannot fully fund the planning 
and design of the regional water projects needed to provide the 
required water for long-term water use. The Navajo Nation, at times, is 
also penalized for being a large reservation when analyzing tribal 
finances concerning individual projects that serve small areas of the 
reservation. Nonetheless, the Navajo Nation continues to work with 
federal programs and other funding opportunities to meet its ongoing 
needs. We also appreciate dedicated federal agency staff who work 
closely with the Navajo Nation to provide technical assistance to meet 
the current and future water development needs.
Agriculture Needs
    In 1986, the Soil Conservation Service (SCS) conducted an inventory 
of irrigation projects across the Navajo Nation. The SCS investigated 
83 irrigation projects to determine existing conditions, consolidate 
resource data, and prioritize possible rehabilitation projects (SCS, 
1986; Figure 2). During the 1980s, these small irrigation projects 
could irrigate approximately 55,000 acres of land (SCS, 1986). Due to 
insufficient staffing for management and funding for the operation, 
maintenance, and replacement, many of these systems have deteriorated 
and need funding. While most historic irrigation projects are not 
actively monitored, there are existing efforts to improve several 
irrigation systems, including the Fruitland, Hogback, Many Farms, and 
Wheatfield projects. The cost to conduct studies and repair some of the 
small irrigation projects is included in Table 1. The highest cost for 
agriculture in Table 1 is a proposed Lake Powell to Shonto raw water 
delivery project for irrigation at the cost of over $600 million.
    The Navajo Nation continues to advocate for the completion of the 
Navajo Indian Irrigation Project (NIIP). Approximately 70,000 acres of 
the planned 110,000 acres are developed. Blocks 9, 10, and 11 contain 
the remaining undeveloped acreage. The most recent estimated cost to 
complete NIIP is included in Table 1.

  <bullet> Consultation is needed with the Bureau of Indian Affairs, 
        U.S. Department of Agriculture, U.S. Bureau of Reclamation to 
        begin discussions about rehabilitating and improving the small 
        irrigation projects on the Navajo Nation.

  <bullet> A plan is needed from the United States in consultation with 
        the Navajo Nation and the Navajo Agricultural Products Industry 
        to complete the construction of the Navajo Indian Irrigation 
        Project,

Livestock Water and Infrastructure Needs
    The Navajo People take pride in their care of livestock as a way of 
life and to provide food and income for their families. The Navajo 
Nation Department of Agriculture estimates that livestock on the Navajo 
Nation requires approximately 1 to 2 million gallons per day or 1,000 
to 2,000 acre-feet of water per year. The water for livestock comes 
primarily from surface water impoundments and livestock wells (Figure 
15). NDWR maintains approximately 900 livestock wells throughout the 
Navajo Nation. There are over 4,000 stock ponds in the Navajo Nation, 
and a majority need sediment removal and rehabilitation. The cost to 
repair and provide additional water sources is included in Table 1.

  <bullet> There is a need for technical assistance to conduct an 
        overall assessment of the livestock water infrastructure needs 
        and to develop a plan to fund, operate and maintain these 
        systems.

Environmental
    The reservoirs on the Navajo Nation provide storage for irrigation 
water, livestock, wildlife, and recreation. There are more than 20 
significant surface water reservoirs with a surface area greater than 
200 acres. These reservoirs are either included in the NDWR Safety of 
Dams Program and/or are stocked with fish by the Navajo Department of 
Fish & Wildlife. The lakes and reservoirs have a combined storage 
capacity greater than 80,000 AF. Over $47 million of water storage 
project needs are included in Table 1.
    In addition, the Navajo Nation has been an active participant in 
the San Juan River Recovery Implementation Program (SJRIP) through the 
U.S. Fish & Wildlife Service and the Recommendations for San Juan River 
Operations through the U.S. Bureau of Reclamation to mitigate impacts 
to water users and the environment. We ask for continued support for 
these programs.

  <bullet> There is a need for continued support to monitor and 
        rehabilitate the existing reservoirs and plan, design, and 
        construct new reservoirs.

  <bullet> Continued support of the San Juan River Recovery 
        Implementation Program and the Recommendations for San Juan 
        River Operations is critical for the continued balanced use of 
        water in the San Juan River.

Conclusion
    There are far too many projects to discuss in detail today, but I 
invite members of this Committee to follow up with me about specific 
programs or projects. Overcoming the legacy of neglect and 
infrastructure deficits on the Navajo Nation will require an aggressive 
water development program. I look forward to working with you. Thank 
you.

    The Chairman. Thank you to all the testifiers.
    Now we turn to Vice Chair Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. Thank you, each 
of you, for your contributions here. It is clear that the need 
is out there across Indian Country, certainly in our State, as 
Valerie Davidson has outlined. This is not an issue of 
addressing outdated or inadequate infrastructure, it is the 
lack of any infrastructure whatsoever. Roughly 20 percent of 
rural Alaska Native homes still lack in-home pipe water. 
Thirty-two of the 190 rural Alaska communities are still 
unserved.
    Again, as you have outlined, the health impacts that come, 
whether at the time of a pandemic, as we are currently, or when 
things are at a time when I think we accepted as somewhat 
normal.
    But what is not normal is the fact that you have these 
health incidences that you have outlined, the high-risk rate 
for not only COVID, but as you have indicated, respiratory 
illnesses that have impacted you and our family personally. One 
out of every three infants hospitalized every year, and again, 
you think about those ongoing health care costs as each of 
these children progress through life. So the need is clear.
    Ms. Davidson, I would like to direct my first questions to 
you. You have mentioned the high costs in Alaska. We understand 
that that comes with difficult geography and small populations. 
But you mentioned in your testimony this issue of the IHS cost 
caps needing to be waived for funding so that underserved 
communities can meet these sanitation needs.
    You have also in your written testimony pointed out that 
oftentimes you will have water and sewer systems that are 
built, but that it is difficult to sustain them from an 
operation perspective because we haven't had the requisite 
training and guidance for sanitation operators.
    If you could speak to some of the challenges that we face 
on the issue of the cost side, some of the other barriers that 
we might be able to address that could help facilitate greater 
buildout, then on the affordability. I have been to more than 
my share of communities that had anxiously awaited the buildout 
of water and sanitation systems in their community.
    Then when they are finally constructed, after years of 
effort and many, many Federal dollars, the cost to hook up to 
the systems is almost prohibitive to the individuals. So you 
have a flush toilet sitting in your house, but you can't afford 
the services.
    So if you could please address the issue of cost, just a 
little bit more directly to the Alaska specifics.
    Ms. Davidson. Thank you for the question, Madam Vice 
Chairman. I just wanted to take a moment to extend our 
appreciation in Alaska for your incredible leadership in 
bringing running water to our communities, which is making a 
huge difference.
    What we are recommending is that the IHS cost caps really 
should be removed for first-service homes, which are still 
hauling their water in five-gallon buckets and disposing of 
their sewer in honey buckets, which by the way have nothing to 
do with honey. We know that just the incredible cost that is 
required, we have multiple competing demands for limited 
funding to construct new community-wide systems. Second, to 
upgrade old systems, which were mentioned at the beginning of 
the hearing, which are really at the end of their useful life. 
The third priority is to really protect existing infrastructure 
from erosion, flooding, permafrost, et cetera.
    We also know that in Alaska, while we are different, we 
often talk about the fact that we are different, Alaska Native 
people want what every other family wants. We want our children 
to be healthy, we want them to be happy, we want them to be 
well educated and we want them to life in safe communities.
    In order to accomplish those things, we have to do things 
differently. Here is an example. The limited funding issue is 
really compounded by the high cost of infrastructure due to our 
short construction season, where all materials need to be 
barged in. If you don't have your barge order in by February, 
you are not going to make that first May barge. Then the river 
freezes and the barge doesn't come. So all those transportation 
costs also create additional expense.
    The construction of new piped community water and sewer 
systems is more than just putting in pipes. You need the entire 
supporting infrastructure that needs to be developed. So it is 
the water source, it is treatment and storage, it is main lines 
and services, it is indoor plumbing, it is wastewater treatment 
and disposal.
    So we really need a significant Federal investment of 
funding to be able to fully fund these services while also 
upgrading and protecting the infrastructure that is already in 
place.
    One other thing is that the current IHS guidelines really 
require contributions for projects that serve any non-Native 
households or any public buildings, like a school. Without 
those contributions, even communities with almost 100 percent 
Native populations could have essential infrastructure projects 
really needlessly delayed or canceled if a pro-rata 
contribution can't be made, which is really contrary to the 
objectives of the program and would really be a major barrier 
in serving communities should funding become available to the 
IHS.
    So unfortunately, what we have is rules in place that while 
may make sense in what my mother still calls the United States 
of America, they don't make sense in rural and remote 
communities like Alaska.
    The other piece is that we also need to make sure that we 
have adequate resources to be able to maintain and sustain 
those operations. Because once you get that facility built, 
when it is 20 below or 40 below or 60 below, if you don't have 
the capacity to heat that water and make sure that those 
facilities don't freeze and the pipes don't freeze, you 
basically have lost your investment in that infrastructure.
    So with that, I think I will say that is probably enough 
for now, it is a mouthful.
    Senator Murkowski. Thank you for that, and I think to your 
last point there about what happens when it gets cold, that is 
what I outlined in that article from the Anchorage Daily News, 
about what we are seeing in our smaller communities, that 
ongoing impact to them and their families not having access to 
water during the winter and during the pandemic.
    Mr. Chairman, at some point in time, I would love to visit 
with you and other members of the Committee about a field trip 
in Alaska. We are doing some pioneering with some smaller 
systems, self-contained systems that ANTHC has been leading on 
with some in the environmental community to really address some 
of what Ms. Davidson has outlined. I think as we look to the 
challenges in other parts of the Country that have similar 
need, maybe some of the innovation that we are seeing up north 
can be replicated. I look forward to that.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much. I look forward to that 
conversation. We were just having a conversation on Monday with 
our staff about looking at some of this distributed technology 
for wastewater disposal in the home. There is certainly going 
to be a need for centralized infrastructure spending.
    It may be that in certain rural communities that just 
providing a subsidy for something that works for an individual 
household may be a cheaper and more sustainable solution than 
what we are currently doing. All of this is to be considered in 
the context of consultation. But it is certainly worth 
pursuing, so thank you for that.
    Senator Cortez Masto?

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you, Mr. Chairman, and Ranking 
Member, thank you to the panelists. This is such an important 
conversation, and please include me, Ranking Member Murkowski, 
I would love to visit your State and take a look at the 
incredible work that is being done there.
    Let me just say, I am from Nevada, and our tribal 
communities also are struggling with maintaining our aging 
water systems. I know that the Walker River Paiute Tribe in 
northern Nevada is one such community that I know would benefit 
from much-needed improvements.
    Let me ask the panelists, are there certain things that we 
should be thinking about to support those communities in making 
the local water systems more sustainable and reliable? I have 
heard a conversation about money that needs to come in for 
upgrades, to protect the current infrastructure, to address the 
cost caps waivers. But when we are talking about sustainability 
and reliability of our water infrastructure, what else should 
we be thinking about as we work with tribes across the Country?
    Let me just open it up to the panelists, and maybe starting 
with Mr. John.
    Mr. John. Thank you for the question.
    We think it is really important for tribes to also develop 
economically. Most of the water systems on our reservation were 
built by the IHS with little to no capacity to economic 
development. If we are to be able to afford the delivery of 
water, we need businesses, commercial businesses, to become 
part of the plan. It is really hard to build businesses on the 
Navajo Nation with the lack of infrastructure.
    So I think building the economy is critical to the 
affordability of water in the future. Thank you.
    Senator Cortez Masto. Thank you. Mr. John, let me just say, 
that is a great segue into a piece of legislation that I am 
going to be introducing to work with our tribes. I have been 
working with our tribes in the State of Nevada. Can you talk 
about that development of our tribal communities that are 
challenged with that ability? I know just in the State of 
Nevada, to develop an revenue base and utilize existing land 
and resources they have to develop their economy, there is more 
we can do at a central level to incentivize it to help them 
develop that. So I appreciate your comments.
    To the other panelists, I am curious on what we can do to 
make our local water systems more sustainable and reliable.
    Ms. Davidson. This is Val Davidson from Alaska. I spoke a 
lot about developing the infrastructure. One of the things that 
helps us to sustain over the long term and make those systems 
more efficient is also making sure that we provide technical 
assistance training and guidance for operators who live in 
those communities who are really maintaining those systems 
every day. In our communities, those are our local people, 
those are our relatives, those are our friends and those are 
our neighbors.
    When you can have a malfunctioning heater or water pump in 
a nice, warm community where it is like 30 degrees, in a 
community like ours, when it is 20 below, it can really freeze 
up the whole system within two hours. So one of the things we 
really appreciate is that the IHS did put in some funding to be 
able to support the training of the maintenance workers, of the 
people who actually live in those communities who know those 
systems, who work with those folks to make sure that as those 
systems are being built that they also know the ins and outs of 
that systems. So if something does go wrong, that person is 
able to jump in and troubleshoot and, I might be dating myself, 
but they can get in there and kind of MacGyver things to be 
able to make that system work until a more long-term solution 
can be reached.
    Senator Cortez Masto. Thank you.
    Let me add, my time is almost up, but thank you to the 
panelists. This is such an important conversation for us to 
have. I am hopeful the Committee will be able to work with our 
tribal communities across this Country to really address this 
challenge that we see. It is horrific that in this day and age 
we have individual communities that don't have either water or 
sewer infrastructure that accommodates their community members. 
We have to do more. We have a responsibility at the Federal 
level.
    So I appreciate this conversation. Thank you.
    The Chairman. Thank you very much.
    For the record, on a bipartisan basis, the staff and 
members are aware of MacGyver.
    [Laughter.]
    The Chairman. My first question is for each member of the 
panel. This is a simple yes or no for the record. This is an 
important marker.
    In your opinion, does the Federal trust responsibility 
include providing universal access to adequate water and 
wastewater services? I will start with Mr. Tsumpti.
    Mr. Tsumpti. I would say no.
    The Chairman. Thank you very much. Ms. Flores?
    Ms. Flores. Yes.
    The Chairman. Ms. Davidson?
    Ms. Davidson. Yes, the trust responsibility extends to 
providing sanitation facilities.
    The Chairman. Thank you. Mr. John?
    Mr. John. Yes.
    The Chairman. Thank you.
    I just want to follow up with Mr. John. The IHS will not 
fund sanitation facility construction projects that it 
determines to be not feasible, often because these projects are 
in remote areas and only serve a small number of people. In 
other words, they don't pencil out on a per-person basis, and 
have difficulty in terms of the O&M budget.
    Have folks really dug into the question that Senator 
Murkowski is asking, are there disruptive technologies 
available that can make the numbers work better? Should the 
Committee be providing resources or statutory authorization or 
at least a nudge to the agencies or to our friends in Indian 
Country to take a hard look at some of this technology? What 
are you thinking along these lines, Mr. John?
    Mr. John. Thank you for the question. It is going to be a 
long while before we reach the point of talking about 
infeasible projects. There are over $130 million worth of 
current projects that are considered feasible by IHS standards.
    When you look at the details of the infeasible projects, 
you come to understand that they are not infeasible because 
they don't need water, those families need water. I think it is 
imperative that we seriously consider funding those projects. 
The infeasibility could be based on different criteria. A lot 
of it is just funding. A lot of the infeasibility of some 
projects can be overcome by just the funding alone. Thank you.
    The Chairman. Thank you very much.
    IHS, EPA, USDA, have all existing programs that provide 
funding for water and wastewater in Native communities. Mr. 
John, what other resources besides funding does the Navajo 
Nation need in order to take advantage of these programs?
    Mr. John. In our department, we almost call ourselves a 
fiscal agent for the Navajo Nation, because we have so many 
agreements with different Federal agencies, whether it is 
through the Army Corps of Engineers, the Bureau of Reclamation, 
the Bureau of Indian Affairs, the USDA. The list goes on and 
on. So we try to tackle the need with every resource that we 
have available.
    But there are limitations across the board to meeting the 
need that is out there today, like I said, there is over a half 
a billion dollars in current need just to get water to homes. 
There is no current funding sources within any Federal agency 
that we can apply for to tackle that need.
    Thank you.
    The Chairman. Thank you very much.
    A question about climate. Chairwoman Flores, how has 
climate change impacted CRITs water use? How is CRIT planning 
for a future with increased competition for a finite water 
supply?
    Ms. Flores. It impacted not per se the Colorado River 
Indian tribes; it has impacted the upper basin of the Colorado 
River. The water users in that area, with lack of snowfall and 
rain, it impacts the users. With our water rights, we have 
senior water rights for the Colorado River Indian Tribe, the 
largest and oldest. In a way it doesn't impact us, but it may 
in the future. But right now, it hasn't. Thank you for asking 
that question.
    The Chairman. Senator Murkowski, for a final round.
    Senator Murkowski. Thank you, Mr. Chairman.
    I think this has been helpful to try to address some of 
what the regulatory barriers may be, some of the things we can 
look to. I think it was the Honorable Amelia Flores that 
mentioned, it is not just dollars, there are other issues that 
are impediments, and the regulatory side of it is one of them. 
We have certainly heard that from Ms. Davidson as well in terms 
of the other things we can do to assist with training and 
capacity building.
    As the President has just recently signed into law the 
American Rescue Plan, there is funding for State, local and 
tribal, significant and substantial funding. In the American 
Rescue Plan, which is different than what we did with the CARES 
Act funding, there is direct reference to the ability for 
State, local, and tribes to use these funds for water and 
wastewater infrastructure.
    Do any of our panelists have any comment about the use of 
those funds as perhaps an initial down payment on what it might 
take to meet need? I know that at this point, nobody knows how 
much will be made available. But I am trying to assess here 
where this Committee, where this Congress, working with this 
Administration, can be most helpful in addressing the needs. We 
know that there are resources. Ms. Davidson used the figure of, 
we have to look to a billion dollars of need when it comes to 
infrastructure.
    But if anyone would like to address what is coming 
available through the American Rescue Plan for purposes of 
water and wastewater infrastructure. I will throw that out to 
whomever might want to respond. Go ahead, Val.
    Ms. Davidson. Thank you, Madam Vice Chair.
    We think it is a great start, really, really helpful. But 
again, we need really significant resources to be able to 
address this problem.
    I want to go back to a question that was asked before about 
feasibility of programs. I really appreciate a fellow panelist 
talking about what is the definition of feasible and by what 
standards. I want to make sure that as we are implementing 
these programs with the resources that are made available, 
let's not, even unintentionally, let's not weaponizes terms 
like feasible or sustainable to perpetuate harm to the health 
of Alaska Native individuals and American Indian families. We 
really need these services. Our children are being hospitalized 
every year and are dying simply because we cannot keep them 
safe, because we don't have sanitation facilities.
    I remember a few years ago, maybe 10 years ago by now, we 
hosted a former Secretary of the U.S. Department of Health and 
Human Services in Guiflook. We described what were third world 
sanitation facilities in our communities. He said afterwards, 
you know what, I have been to third world countries, and what 
they have is better than what we have right here in these 
United States of America. That is unacceptable.
    So while definitely, the resources that were allocated 
under the American Rescue Plan, we appreciate that those are 
being opened for additional water and wastewater 
infrastructure. This might be a terrible pun, given what we are 
talking about, but it is just a drop in the honey bucket of the 
real needs that we know that exist in Native American 
communities. So we appreciate the effort because it is more 
than what we have now.
    But it is time, it has been time to make a significant 
investment to just eliminate this problem once and for all. We 
are the greatest country in the world. But in order to achieve 
that, every community needs to be able to feel that in their 
homes. We have that opportunity to do that today.
    Senator Murkowski. Ms. Davidson, thank you for that. It is 
a reminder that while we have come far, we have so very far to 
go when it comes to meeting basic needs.
    I will never, never forget a visit that I made to a small 
village some years ago, about 10 years ago now. They have since 
been able to get running water into some of their community 
buildings. But at the time there was none, including in their 
clinic. I was doing a tour of the clinic. I asked, how do you 
clean things? They showed me the Lysol wipes.
    But not to get too graphic, but in these clinics, you do 
specific procedures, some gynecological procedures where you 
use medical devices. The health aide said that she takes these 
home and boils them in water and then brings them back to the 
clinic.
    When you don't have the ability even in a small clinic to 
be able to provide for basic sanitation, this should be 
shocking to everyone.
    I look froward to the opportunity to share again with the 
Committee, several of the Committee staff have had an 
opportunity to go to Alaska. They had a field hearing out in 
Savoonga on St. Lawrence Isle. It was focused on housing, and 
housing infrastructure. But with housing also comes water, a 
toilet. I think what many saw was pretty shocking. We don't 
want to shock people; we want to help people.
    Mr. Chairman, I really appreciate your focus on this and 
look forward to some good, strong, innovative ideas coming out 
of the Committee here.
    The Chairman. Thank you very much.
    Senator Lujan.

               STATEMENT OF HON. BEN RAY LUJAN, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Lujan. Thank you so much, Chairman Schatz, and Vice 
Chair Murkowski, for holding this hearing today and to the 
witnesses for joining us.
    In the U.S. House of Representatives, I was proud to 
introduce the New Mexico Navajo Water Settlement Technical 
Corrections Act to authorize the Navajo Gallup Water Supply 
project to serve thousands on and off tribal lands. The bill, 
which was signed into law back in 2009, provided $1 billion to 
support a water delivery system for Navajo communities from 
Shiprock to Gallup. The project is a heightened focus due to 
COVID-19, especially around the Navajo Nation and surrounding 
communities.
    Mr. John, what is the latest on this project? How many 
households will this water system serve once it is completed?
    Mr. John. Yes, thank you, Senator. Currently, the Cutter 
Lateral of this project is currently delivering water to 
communities in the eastern part of the Navajo Nation. It is in 
the testing phase, but it is the beginning of the delivery of 
water to hundreds and hundreds of homes that are currently 
already a part of existing public water systems. So we really 
thank everyone for their effort to try to get that project 
built.
    The San Juan Lateral is still under construction but when 
that one is complete it will also tie into dozens of existing 
water systems and provide water to many other hundreds of homes 
along the San Juan Lateral. We think that this project is a 
good example of what needs to happen in other areas on the 
Navajo Nation, primarily the western part of Navajo. Families 
there are in dire need of a water supply in Arizona, as well as 
families in Utah near the San Juan River. We have projects 
being designed and planned for those areas.
    So we want to thank you for the support of the Navajo 
Gallup. We have a lot of work to do to meet the needs of the 
many other Navajos on the Navajo Nation. Thank you.
    Senator Lujan. I appreciate that, sir.
    One thing I would also say is there is still a big need in 
New Mexico. This does not solve the challenges with the Navajo 
Nation in New Mexico. So more is needed, I agree.
    According to the Navajo Nation Department of Water 
Resources, approximately 30 percent of the Navajo Nation does 
not have access to clean and reliable drinking water. Even 
though there is substantial investment in the CARES Act, the 
barriers that were put in place because of the timelines 
prevented the Navajo Nation from being able to move those 
projects forward without securing the rights away from the 
Bureau of Indian Affairs.
    Now, I think we all know the urgency of getting these 
projects into the ground. I am very concerned that there are 
still delays that were created from the BIA in the previous 
Administration. Even an issue that I explained to the Vice 
Chair, we were able to secure FEMA funds for the bridge in 
Monolito that had collapsed. But the BIA would not approve the 
right-of-way back then and we lost the Federal money. The 
Navajo Nation and the local county government lost the money.
    Mr. John, yes or now, do you believe that a shortened 
application process for BIA rights-of-way for public health 
infrastructure during national and tribal emergencies would 
help the Navajo Nation address its shortage of water 
infrastructure?
    Mr. John. Yes, I think that process would significantly 
help the construction of water systems. We also need help for 
the programs prior to BIA getting those rights-of-way 
applications. Thank you.
    Senator Lujan. Mr. John, same question on wastewater and 
drinking water projects. Would this also help those projects 
get built?
    Mr. John. Yes.
    Senator Lujan. Yes or no, do you believe that uniform 
rights-of-way application shared among the Bureau of Indian 
Affairs, U.S. Forests, Bureau of Reclamation, Army Corps of 
Engineers, and the Bureau of Land Management would expedite the 
application process for water infrastructure projects?
    Mr. John. Yes, I think if they were all working with the 
same rules, it would help expedite the process. Thank you.
    Senator Lujan. And the last question, Mr. Chair, as my time 
runs out, is, I still have a concern associated with the census 
data with us having a good understanding of how many families 
currently do not have running water, electricity, or broadband. 
We are relying on non-profits.
    The Indian Health Service and the Census Bureau and 
underfunded tribal utility departments still paint an 
incomplete picture of existing utility gaps on tribal lands. 
That is unacceptable. So I am hopeful we can get some responses 
to what data each of these departments used and are sharing 
with us to calculate the need, and that this is also an issue 
we can all work on together.
    Thank you so very much. I appreciate your calling this 
important hearing.
    The Chairman. Thank you, Senator Lujan.
    This is not in my briefing binder, but I want to make this 
point for all of us on this Committee. I am pretty sure we can 
get unanimity here. There is a lot of enthusiasm for broadband, 
and there is a lot of talk about broadband mapping, and there 
is a lot of talk about investing in broadband infrastructure in 
extraordinary dollar amounts. Broadband is important. I am for 
broadband, I used to be the ranking member or the chair of the 
Telecom Subcommittee in Commerce. Don't get me wrong; we should 
be investing in broadband. It is like rural electrification in 
a new generation.
    We still have communities in the United States of America 
that don't have safe drinking water. That is totally 
unacceptable. So first things first. If we are going to move 
forward on an infrastructure package together, especially for 
Native American communities, first things first. Water.
    So if there are no other questions for our witnesses, 
members may also submit follow-up written questions for the 
record. The hearing record will be open for two weeks. I want 
to thank the witnesses for their time and testimony.
    This hearing is adjourned.
    [Whereupon, at 3:43 p.m., the hearing was adjourned.]

                            A P P E N D I X

          Prepared Statement of the Southern Ute Indian Tribe
    The Southern Ute Indian Reservation--the homeland of the Southern 
Ute Indian Tribe's 1500-plus members--consists of approximately 700,000 
acres of land located in arid, southwestern Colorado in the Four 
Corners Region of the United States. Ute elders will tell you that to 
their people, water has always been the provider; water is life. 
Traditionally, the Ute people were hunters and gatherers, camping and 
traveling along the streams and rivers of the West to harvest game and 
edible plants. That was before Federal government interference. The 
government's obsession with turning Indians into farmers forced upon 
the Tribe a new, more tenuous relationship with water. As communally-
held tribal land was parceled into allotments for individual Indians to 
farm, it became a necessity to force the flow of water to areas that 
typically only received moisture when it rained. Rainfall is a rare 
occurrence on the Reservation, which annually receives an average of 8-
20 inches of precipitation. The United States knew this. As early as 
1880, during the allotment debate, Indian Agent Henry Page noted in his 
annual report that, ``land on the Southern Ute Reservation could not be 
cultivated without the use of irrigation ditches.'' Engineering and 
construction of irrigation ditches was soon a major component of what 
was then called the Indian Service's responsibilities at the turn of 
the century. Local Indian Agents recognized the importance of securing 
the necessary water rights for all tribal allotments, and pressed 
officials in Washington, D.C. to act quickly, but as Easterners, the 
officials did not appreciate the value of water in the West and the 
need for urgent action.
    The first irrigation ditches to serve Southern Ute lands were built 
in the mid-1880s, and by 1888 almost 600 acres were in cultivation 
along the Pine River. Those ditches comprise a large part of what we 
now call the Pine River Indian Irrigation Project (PRIIP). The PRIIP is 
still owned and operated by the Bureau of Indian Affairs (BIA). Based 
on its boundaries and operating agreements, PRIIP should be providing 
water to approximately 12,000 acres and nearly 400 individual users, 
including approximately 100 non-Indians and the Town of Ignacio, but 
due to extreme deterioration of its infrastructure, it falls far short 
of that goal. An assessment of the PRIIP conducted by the GAO in 2006 
identified a maintenance backlog of over $20 million, and that estimate 
was confirmed in a 2008 study commissioned by the BIA. A different 
assessment performed in 2000 by the BIA's Office of Trust 
Responsibility found that the cost to completely rehabilitate the 
system, including upgrading equipment and other non-structural items, 
would be closer to $60 million. Though the PRIIP is Federally-owned and 
operated, the Tribe is mid-way through a 5-year program to rehabilitate 
portions of the PRIIP using $4 million of tribal funding and just 
completed an emergency repair on the project using $880,000 of tribal 
funding.
    The deteriorated condition of the PRIIP means that many of its 
users are unable to access and use water for agricultural irrigation. 
Despite this condition, users have seen rates for operation and 
maintenance increase over recent years even while the PRIIP continues 
to fail to deliver water for their use. This ongoing lack of water 
delivery to both Indian and non-Indian lands presents a significant 
barrier to agricultural economic development for both the Tribe and the 
local community. The following points illustrate the system's 
deplorable condition:

  <bullet> Only an estimated 15 percent of the Project's 175 miles of 
        canals can be considered in good condition;

  <bullet> Some of the Project's major diversion structures date to the 
        1930s, with no major rehabilitation or improvements since the 
        early 1960s;

  <bullet> An estimated 40 percent of the project's irrigable acreage 
        is not being irrigated, and a significant amount of that simply 
        cannot be irrigated given the current state of the Project;

  <bullet> The Project's largest canal, serving over 4,500 irrigable 
        acres of Indian and non-Indian land, has breached three times;

  <bullet> The aforementioned canal has multiple, large, antiquated 
        flumes in danger of failing:

  <bullet> Dozens of smaller irrigation structures constructed pre-
        1920s have collapsed and have simply been abandoned;

  <bullet> Ditches have been abandoned and lands that were previously 
        irrigated have become derelict, requiring costly 
        rehabilitation; and

  <bullet> Erosion has created miles of incised channels and ditches 
        where elevated headgates no longer allow for the diversion of 
        water to lands that historically were irrigated.

  <bullet> Neglect of operation and maintenance roads has made access 
        to many structures and sections of ditch either impossible or 
        unsafe.

    Funding to address some of the PRIIP's needs was authorized in the 
Water Infrastructure Improvements for the Nation Act (``WIIN Act,'' 
Pub. L. No. 114-322). Enacted in 2016, the WIIN Act establishes the 
Indian Irrigation Fund (the Fund) in the Department of the Treasury to 
address the deferred maintenance, repair, and replacement needs of 
various Indian irrigation projects \1\ in the western United States. 
The WIIN Act came as a great relief to Southern Ute and other tribes in 
the West that had been asking for decades for help with decaying 
Federal irrigation projects, but repairs under the WIIN Act met an 
unexpected delay. While the WIIN Act authorized funding for this 
critical purpose, the actual appropriations have fallen far short.
---------------------------------------------------------------------------
    \1\ To be eligible for these funds, the project must be (1) owned 
by the Federal government, (2) managed and operated by the BIA 
(including projects managed, operated or maintained under contract or 
compact pursuant to the Indian Self-Determination and Education 
Assistance Act, 25 U.S.C.   450, et seq.) and (3) have BIA-documented 
deferred maintenance.
---------------------------------------------------------------------------
    The Act directs the Secretary of the Treasury to deposit $35 
million annually through fiscal year 2028 into the Fund, with such sums 
plus accrued interest to be transferred to the Secretary of the 
Interior for distribution by the Bureau of Indian Affairs. However, 
since its inception, Congress has only appropriated $10 million per 
year for the Fund--less than one-third of the $35 million authorized. 
Not only does the level of appropriation fall far short of the 
demonstrated need, continued delay simply adds to future costs as 
deterioration of failing systems continues.
    In conclusion, the Southern Ute Indian Tribe--on behalf of the 
Tribe's farmers, local non-Indian irrigators, and tribal irrigators 
across the parched West--respectfully asks the Administration to 
request the full $35 million authorized per year and urges Congress to 
grant the budget request.
                                 ______
                                 
  Prepared Statement of the Ute Indian Tribe of the Uintah and Ouray 
                              Reservation
I. Introduction
    Chairman Schatz and Members of the Senate Committee on Indian 
Affairs, the Ute Indian Tribe of the Uintah and Ouray Reservation 
appreciates the opportunity to testify on our water infrastructure 
needs. Your March 24, 2021, oversight hearing entitled ``Build Back 
Better: Water Infrastructure Needs for Native Communities'' addressed 
some of the most important issues on our Reservation, specifically, our 
long-standing infrastructure needs related to tribal drinking water 
systems and water storage. We appreciate your consideration of our 
testimony and ask that it be made part of the hearing record.
    In brief, providing and improving the drinking water systems, water 
storage and other water infrastructure needed by Indian tribes should 
be a national emergency. Like many tribes, we lack much of the basic 
water infrastructure needed to provide for our members, and the 
infrastructure we do have is in need of serious repair and upgrades. 
The United States has both a treaty and a trust responsibility to 
provide the funding and technical support for tribes to develop and run 
these systems. Yet, the few federal programs supporting tribal water 
and sanitation infrastures are so underfunded that there is a decades 
long backlog.
    Part of the problem may be that there is no true lead agency for 
tribal water infrastructure. Most of this funding comes from a portion 
of the State and Tribal Clean Water Revolving Fund that the 
Environmental Protection Agency oversees. But, then this funding is 
utilized by a sanitation and waste water program within the Indian 
Health Service to fund and support not just sanitation, but also 
drinking water systems. Meanwhile, the Bureau of Indian Affairs 
oversees some irrigation projects and dam saftey. The United States 
cannot fulfill its obligations to provide reliable drinking water 
systems and other water infrastructure in Indian Country with programs 
and funding spread across so many different agencies.
II. Water Resources Management is Vital to Health and Security on our 
        Reservation
    The Ute Indian Tribe consists of three bands: Uintah, White River, 
and Uncompahgre Bands. Our ancestral homelands stretch from the 
Colorado Front Range to the Wasatch Front in Utah--from present-day 
Denver to Salt Lake City. Through a series of treaties and agreements 
we agreed to reside and establish a homeland on our Uintah and Ouray 
Reservation (Reservation) in northeastern Utah. Our 4.5-million-acre 
Reservation is the second largest in the United States. Our Reservation 
is approximately 150 miles east of Salt Lake City.
    The delivery of safe drinking water to our members is one of the 
highest priorities for the Ute Indian Tribe. The vast majority of our 
members live on our Uintah and Ouray Reservation (Reservation) and are 
provided water for domestic, commercial, municipal, and industrial 
(DCMI) purposes by our Ute Tribal Water System (UTWS). Based on 2005 
data, our UTWS provides water to upwards of 3,850 users between the 
system and its external connections. The COVID-19 pandemic and 
isolation of our elders and members in their homes has highlighted the 
vital need of our ability to provide clean drinking water across our 
Reservation.
    Despite the vital importance of our UTWS, the last time the system 
was comprehensively rehabilitated was in 1981, and the last sanitary 
system survey of our UTWS occurred in 1982. The United States and 
Congress must do better. We ceded millions of acres of lands and 
resources in treaties and agreements with the United States. In return, 
the United States promised to secure our homeland and provide programs 
and services to the Tribe. It is time to make good on these promises 
and provide adequate funding for tribal water systems and other 
infrastructure needs.
    As you may know, the State of Utah is recognized as the second most 
arid State in the country. This includes our Reservation and requires 
careful and considered management of our water resources for drinking, 
irrigation, and all of life. In his 1905 Annual Report, the 
Commissioner of Indian Affairs described the conditions on our 
Reservation and bluntly stated, ``The future of these Indians depends 
upon [water]. . .for without water their lands are valueless, and 
starvation or extermination will be their fate.''
    Our Reservation lies entirely within the drainage of the Upper 
Colorado River Basin. We have a multitude of streams flowing through 
the Reservation, including: the Duchesne River and its tributaries, 
Rock Creek, Lake Fork River, Yellowstone River, Uinta River, and 
Whiterocks River, among the rivers that flow south from the Uinta 
Mountains through the western part of the Reservation to the Green 
River, which together with its tributaries, including the White River, 
flows through the eastern part of the Reservation then on to the 
mainstem of the Colorado River.
    As a part of our Reservation, we maintain Indian-reserved water 
rights by diversion of 549,685 acre-feet per year in the Upper Colorado 
River Basin. Priorities for these rights are dated to 1861 for all 
historically and practicably irrigable lands of the Uintah Valley 
portion of the Reservation, including municipal and industrial water 
rights, and 1882 for all lands served on the Uncompahgre portion of the 
Reservation, through which the Green River and its tributaries flow and 
border. We own the highest priority water right to natural flows from 
all rivers within the exterior boundaries of the Reservation.
    In 1916, the United States initiated litigation in federal court to 
protect our reserved water rights and enjoin various private irrigation 
companies from interfering with our tribal members' use of our waters. 
A portion of our Indian reserved water rights was recognized through 
this successful litigation and resulted in the issuance of two federal 
decrees in 1923 for our reserved water rights on the Lake Fork and 
Uintah Rivers and their territories, where the majority of tribal 
members reside. Agreement on the remaining portion of our Indian water 
rights was reached by agreement with the State and the Federal 
governments in 1965 when we agreed to not develop some of our Indian 
water rights so that the State could proceed to construct and complete 
the Central Utah Project.
    The Central Utah Project is a massive federal project that diverts 
and stores water from our region and our Reservation to provide water 
to the Wasatch Front, including Salt Lake City and Provo. As a part of 
this Project, the government promised to construct a water storage 
facility in the Uintah Basin that would provide the Tribe with the 
necessary water resources to develop and use our Reserved Water Rights 
on our Reservation. This storage has still not been built.
III. Investments Needed for Safe Drinking Water Infrastructure
    The delivery of safe drinking water to our Tribal members is of the 
highest priority for the Tribe. The vast majority of our members live 
on the Uintah and Ouray Reservation and are provided with water for 
domestic, commercial, municipal, and industrial (DCMI) purposes by our 
Ute Tribal Water System (UTWS). Our UTWS service area covers roughly 
175 square miles, including the towns of Whiterocks, Fort Duchesne, 
Randlett, Ouray, and other rural areas. We also operate a high school 
for our tribal members in Fort Duchesne, Utah. Through external 
connections, our UTWS is also the sole water supplier to the Ballard 
Water Improvement District, the Ouray Park Improvement District, and 
the Independence region of the Johnson Water Improvement District.
    Our UTWS diverts and treats water from Whiterocks and Uriah Heap 
Springs, which is delivered by gravity through nearly 60 miles of 
pipelines and numerous valves, hydrants, and water meters. Each spring 
subsystem on the UTWS has its own water treatment facility. Whiterocks 
typically takes 100 gpm through treatment, while Uriah Heap takes about 
700 gpm through its system. The Whiterocks Springs subsystem serves 115 
connections with an average daily demand of 63 gpm. Uriah Heap has 815 
connections and an average daily demand of 700 gpm.
    In 2010, we asked an engineering firm to evaluate the conditions of 
the water collection systems at Whiterocks River and Uriah Heap 
Springs. They found that multiple improvements for environmental health 
and better water management within our UTWS were needed. Deteriorated 
conditions included vegetation growth and poor surface drainage in the 
spring areas, root intrusion, sediments, and cracking in collection 
pipes, a lack of water meters in the system, a need for increased water 
quality monitoring in the system, and unmonitored spillage of untreated 
spring water into local canals. Though customer water meters have since 
been installed and a new Uriah Heap treatment plant was built, not all 
recommended improvements have been fully implemented.
    In 2014, another engineering firm observed or were made aware of 
the following concerns related to our UTWS:

  <bullet> Continued poor surface drainage and vegetation in spring 
        collection fields;

  <bullet> Insufficient fencing around springs that could allow 
        livestock to contaminate water sources;

  <bullet> Rusted, leaking, or overflowing water storage tanks;

  <bullet> Freezing or burst water pipes in the winter throughout the 
        system;

  <bullet> Vandalism of UTWS structures; and

  <bullet> A strong need for a hydraulic model to understand water flow 
        within the system.

    Despite these issues and our requests for support, the Indian 
Health Service (IHS) has not been able to fund and install spillage 
meters needed at both springs for several years, and individual water 
meters are not read; as a result, both users and external connections 
pay only a flat monthly water rate regardless of use. Although we 
appreciate the technical support that IHS has been able to provide, 
most of its limited infrastructure or construction funding goes towards 
drilling domestic water wells for individual tribal members. As a 
result, our UTWS has continued to suffer from a lack of maintenance, 
rehabilitation, and expansion funding.
    Due to chronic underfunding for our UTWS, we have had difficulty 
maintaining, providing, and ensuring that our tribal members have 
access to safe drinking water. Since 2018, we have made a concerted 
effort to improve our internal monitoring and auditing procedures 
related to the quality of the water delivered by our UTWS. However, the 
lack of consistent and available funding sources to rehabilitate, 
improve, and expand access to our UTWS remains a significant and 
serious issue for the majority of our tribal members. And, some of our 
tribal members must rely on relatively shallow individual wells or 
developed springs for their water supply.
IV. Investments Needed for Water Storage
    The need for water storage on our Reservation has been clearly and 
repeatedly documented for over 100 years. Indeed, it is well known that 
irrigation and other related tribal water projects cannot be successful 
in an arid environment without water storage infrastructure. The 
Federal government has acknowledged, on many documented occasions, its 
obligation to manage water projects through storage facilities, yet the 
Tribe continues to face water storage deficits on a regular basis.
    It is unbelievable that our Reservation homelands were established 
in this arid region and we still lack a water storage facility to 
support our municipal, irrigation and water development needs. 
Meanwhile, the non-Indian residents of Utah are served by the Central 
Utah Project--one of the largest water storage and delivery projects in 
the United States. Because of these documented water shortages, the 
Tribe has sought to develop viable, environmentally sound storage 
facility options that will regulate the flows of Reservation streams 
and provide an ample and dependable water supply for the Tribe. 
Storage, combined with natural flow, is the only way the Tribe can 
fully develop its irrigation system, provide for our members, and put 
our reserved water rights to use. We ask that the Federal government 
make good on its commitment to provide the water infrastructure 
promised and needed for our homelands.
    The ability to store water is vital to our Uintah Indian Irrigation 
Project (Project). The Project is one of 16 Indian Irrigation Projects 
that the Bureau of Indian Affairs (BIA) is directed to manage in 
support of the Federal government's trust responsibilities and to 
create economic development opportunities on our Reservation through 
agriculture. Our water users pay annual operations and maintenance 
fees, but chronic underfunding of the Project has resulted in layers of 
problems. Current problems are well documented and include decades of 
deferred maintenance and the need for repair and replacement of 
diversion structures, canals, laterals, and ditches to bring the 
deteriorated infrastructure up to current standards. And, as noted, the 
Project lacks the basic storage that irrigation systems rely on to 
regulate the natural flows of the rivers and the rehabilitation and 
betterment of our Project.
    We ask that the Biden Administration honor and fulfill the United 
States' treaty and trust responsibilities to support our critical need 
for water storage infrastructure. Storage infrastructure is needed to 
support and provide for the Tribe's Reservation homelands in Utah. 
Actions are needed to improve BIA's management of our water irrigation 
projects and to secure funding that will enable us to get the full 
economic benefit of our Indian reserved water rights.
V. Additional Impacts from COVID-19 Pandemic and Specific Funding 
        Needed
    The COVID-19 pandemic has highlighted and exacerbated our need to 
provide Tribal members access to safe and reliable drinking water--
which is paramount in maintaining proper hygiene and staying healthy. 
IHS has already documented that families with access to reliable safe 
drinking water and sewage systems require appreciably fewer medical 
services and place fewer demands on the IHS and tribal primary health 
care delivery system. For every dollar IHS spends on sanitation 
facilities to serve eligible existing homes, at least a twentyfold 
return in health benefits is achieved.
    Despite these clear health benefits and the additional impacts from 
the COVID-19 pandemic, we are still waiting for Congress to provide the 
funding levels for needed improvements to our UTWS and tribal water 
systems throughout Indian Country. Congress knows this. We all know 
this. The shortfalls in IHS funding are well-known. This is not only a 
funding shortfall, but also a failure to fulfill the United States' 
treaty and trust responsibilities.
    The American Recovery Plan Act will provide some of the funding 
needed but still will only scratch the surface. And, more importantly, 
we are still in the middle of a pandemic and have many demands for the 
funding provided. Do we use funding in the Act to invest in water 
infrastructure, support tribal members and businesses still suffering 
from the economic slowdown, or invest in broadband infrastructure to 
support the education of our youth? Indian Country needs the level of 
funding provided in the Act year after year just to support water 
infrastructure.
    While Congress fails to meet its obligations, we are still working 
hard to provide our members with safe and clean drinking water 
supplies. We recently investigated and identified (1) the need to 
develop groundwater wells and associated facilities to provide 
culinary/domestic water to an area of our delivery system known as the 
Farm Loop Road area located north of our Whiterocks Tribal community; 
and (2) the need for a supplemental supply to the existing Whiterocks 
and Uriah Heaps water systems. Our residents on Farm Loop Road are 
representative of those who experience poor water quality from their 
domestic wells and seasonal water shortages.
    We conducted project feasibility studies for these two projects, as 
well as their economic feasibility. Not surprisingly, the cost per 
residence in the targeted isolated, rural Reservation area can run as 
high as $132,000 per residence for groundwater development. When the 
residential improvements are combined with the development of the 
supplemental water supply project, we can bring our costs down to 
$12,609 per connection. However, that still leaves us with an overall 
cost to improve access and make water supply improvements of 
$12,500,000--in just one area of our UTWS on our large Reservation.
    Some sources of funding are specifically limited to loans to 
eligible water systems. One example is the EPA Drinking Water State 
Revolving Loan Fund which has a 2 percent Drinking Water Infrastructure 
Tribal Set-Aside. In addition, this funding is not available where 
there is no existing water system as in the example above for our Farm 
Loop Road residential area.
    We also run into problems because a project's cost efficiency is 
often used by funding sources, including IHS, as a measure of a 
project's economic feasibility. If the measure of the cost per 
household is used as a measure for tribal funding, the highest cost per 
household served in Utah is $40,500. As described above, the estimated 
cost for some of our very rural, reservation tribal households can be 
as high as $132,000 per residence for groundwater development. Yet, the 
IHS Phoenix Area, which includes our Reservation, has a cap on the cost 
for a system identified as ``deficient'' at about $58,000 per Tribal 
home served. IHS told the Tribe that if we exceed their cap then the 
project cannot be funded. As a result, the Tribe receives $0 benefit 
from IHS, even though the Tribe offered to make up the difference. None 
of these caps or cost limitations are consistent with the Federal 
government's trust responsibilities.
    Some other sources of funding, such as the U.S. Bureau of 
Reclamation WaterSMART grants--Water and Energy Efficiency Grants, 
require a 50/50 cost share, with Tribes located in the western states 
eligible for funding of Tribal projects that conserve water and/or 
provide hydropower development. Many Tribes are not able to fund the 50 
percent share of the costs under this program. And, more importantly, 
this cost share is not consistent with the United States' debts owed to 
Indian Tribes and the trust responsibility.
    A final example of existing funding sources is the Water 
Infrastructure Improvements for the Nation Act--Assistance for Small 
and Disadvantaged Communities Drinking Water Grant. The grants target 
public water systems in small and disadvantaged communities to meet 
Safe Drinking Water Act requirements. However, with a 2 percent tribal 
allotment under the program funding, there is only a total allotment of 
$875,000 for tribes across the United States. States, cities and towns 
covering much smaller areas have higher water infrastructure budgets 
than this.
VI. Conclusion
    Improvements to our Reservation water infrastructure can save lives 
and increase the life expectancy of our Tribal members. The United 
States and Congress have obligations based on treaties, agreements, and 
the Federal government's trust responsibility to meet these basic 
needs. Like many Tribes, the Ute Indian Tribe needs Congress to provide 
significant funding to finally meet these obligations, particularly 
during the global pandemic we all face today.
    Significant investments in drinking water and storage 
infrastructure will help to ensure that our water system meets water 
quality standards and would also provide a vital economic boost for the 
economy in response to the COVID-19 pandemic. Investments in water 
storage infrastructure will help ensure that our irrigation project 
needs will be met. The Ute Indian Tribe has done the feasibility 
studies and we know what is needed. Even IHS knows what is needed. We 
need to modernize our Tribal water delivery system, firm up water 
supplies to our Reservation Tribal residents, and ensure quality water 
supplies are available that satisfy health-based drinking water 
standards. It is time for Congress to act on these needs.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mike Rounds to 
                   Hon. Valerie Nurr'araaluk Davidson
    Question. I am curious to get the panel's perspective on the Corps 
of Engineers' Tribal Partnership Program, which has been successfully 
used in South Dakota. I am interested in whether this is a program you 
have used and, if so, what your views are on the effectiveness and 
utility of this program--and the Bureau of Reclamation's Native 
American Affairs Technical Assistance Program?
    Answer. It has been very challenging to engage the Corps of 
Engineers through the Tribal Partnership Program in Alaska. Although 
the Corps can support Tribes with up to $200,000 to assist in planning 
projects, at no cost to the Tribe, we have seen little engagement from 
USACE Alaska District staff to support Tribes in this effort.
    Since 2018, we have sent 13 community requests to their Planning 
Assistance to the State's Program, but only two projects were 
supported. One project stalled at the agreement stage because of lack 
of community engagement funding. Generally, 35 percent and 50 percent 
local cost-share requirements exclude most of our communities from 
other Corps programs that were formerly successful when there was no 
cost-share to the community.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John Hoeven to 
                   Hon. Valerie Nurr'araaluk Davidson
    Question. How can we better assist Tribes with accessing and 
navigating federal programs?
    Answer. There are many potential ways to improve existing programs 
and the ability of Tribes to successfully access and navigate these 
opportunities.
    Many federal programs do not fund mitigation measures, measures 
which are increasingly needed as climate change is dramatically 
impacting our Alaska Native communities and the infrastructure in those 
communities. As more Tribes in Alaska are facing threats to 
infrastructure from a changing environment, some weaknesses in the 
system are being exposed. For example, the existing IHS Sanitation 
Deficiency System (SDS) determines sanitation project eligibility based 
on a defined set of deficiency levels. When the deficiency levels were 
created, they simply did not conceive of any deficiencies based on 
environmental threats. Now we have an ever increasing number of acute 
threats to our existing systems from flooding, erosion, and permafrost 
thaw.
    These impending impacts to sanitation systems are not considered 
deficiencies, rendering these needs ineligible for funding until after 
the damage has occurred. Mitigating these threats prior to damage would 
eliminate system interruptions and subsequent public health impacts, as 
well as protect the existing federal investment. The IHS is working 
with our team to help track these needs in the existing sanitation 
facilities database, but until the deficiency definitions are updated, 
these needs will remain ineligible for funding consideration.
    When it comes to mitigation of and response to environmental 
threats and climate change, the dynamic described above is consistent 
within all other federal programs, as these programs do not account for 
a significant need to address environmental threats to infrastructure. 
Federal agencies are ill-equipped to provide the technical assistance 
and funding support needed to address these issues. Tribes are left to 
independently piece together ad hoc responses to impending threats via 
myriad disparate federal, state, and philanthropic programs.
    Conventional wisdom has long since determined that a more 
coordinated governmental response is needed to effectively address 
climate change related threats to tribal infrastructure in Alaska. 
However, little progress has been made to define or implement a 
governmental framework to address the coordination gap. In 2015, the 
Denali Commission was appointed as the lead federal coordinating agency 
for the federal response to erosion, flooding, and permafrost thaw in 
Alaska Native villages. However, the agency's new role was launched 
based only on a presidential announcement and came with no additional 
funding or authorities.
    The Commission was able to achieve some success through direct 
investments in high priority community mitigation needs. However, the 
lack of an explicit federal policy directing other agencies to engage 
with the Commission, along with no defined agency role or dedicated 
funding, has limited the Commission's ability to coordinate federal 
agencies to improve the governmental response to impending 
environmental threats. A government-wide coordinating framework 
defining the roles, responsibilities, functions, and authorities for 
all relevant entities is critical to ensure efficient and cost-
effective environmental threat mitigation.
    Finally, federal programs are generally not structured nor funded 
to provide adequate technical support to tribal communities--especially 
related to project development, grant writing, implementation, and 
ongoing management. The assumption made is that sufficient capacity to 
carry out these functions should exist within the communities 
themselves. While not an unreasonable assumption when engaging with 
most municipalities in the United States, many tribal communities lack 
the relevant experience and capacity. Therefore, providing direct 
technical assistance within federal programs is necessary to 
meaningfully improve tribal access, build long-term capacity, and 
facilitate community development.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mike Rounds to 
                           Hon. Amelia Flores
    Question. I am curious to get the panel's perspective on the Corps 
of Engineers' Tribal Partnership Program, which has been successfully 
used in South Dakota. I am interested in whether this is a program you 
have used and, if so, what your views are on the effectiveness and 
utility of this program--and the Bureau of Reclamation's Native 
American Affairs Technical Assistance Program.
    Answer. Senator Rounds, thank you for the question and for your 
focus on helping tribal governments and our local partners secure 
federal funding for water infrastructure projects. I understand that a 
number of tribal leaders in South Dakota are enthusiastic about the 
expedited reviews and process available to them through the Army Corps 
of Engineers Tribal Partnership Program.
    At CRIT, we have not had the opportunity to participate in this 
program. The Corps maintains the banks of the Colorado River through 
our Reservation; however we only work with them to a limited degree on 
dredging and small scale restoration projects. Should the Tribe be in a 
position to require a major infrastructure investment from the Corps, 
we will certainly consider using this program.
    On the other hand, CRIT has routine interaction with the Bureau of 
Reclamation. We have found the Bureau's senior staff to be helpful and 
accommodating, which is critical because tribal governments have rights 
to approximately 20 percent of all Colorado River water. As Tribal 
Governments move forward in utilizing their full water rights, the 
technical assistance program will continue to be a necessary resource 
to help us understand the nuances of water management in the arid west.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John Hoeven to 
                           Hon. Amelia Flores
    Question. How can we better assist Tribes with accessing and 
navigating federal programs?
    Answer. Senator Hoeven, thank you for the question. In CRIT's 
experience, the simple answer: appoint individuals that have experience 
working with tribes, and consult with us on critical issues.
    The biggest hurdles we've faced are when tribal water rights are 
not considered during the creation of a program. Two examples that come 
to mind are the WaterSMART program and the Intentionally Created 
Surplus (ICS) program on the Colorado River. In both cases, the 
parameters of the program were created without considering how tribes 
could participate. Our water rights are fundamentally different in many 
cases from state water rights and Reclamation Contracts. The Department 
just has to ask the questions about how their proposal impact tribes. 
Beyond just making for better policy, it is required under Executive 
Order 13175. The Bureau has the obligation to consult with Tribes, just 
like every other federal agency, and it is my hope that they will do so 
with greater frequency moving forward.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mike Rounds to 
                               Jason John
    Question. I am curious to get the panel's perspective on the Corps 
of Engineers' Tribal Partnership Program, which has been successfully 
used in South Dakota. I am interested in whether this is a program you 
have used and, if so, what your views are on the effectiveness and 
utility of this program--and the Bureau of Reclamation's Native 
American Affairs Technical Assistance Program.
    Answer. The Navajo Nation has been effectively using the Tribal 
Partnership Program for smaller scale projects over the years and we 
appreciate the increases in non-federal cost share for the initial 
study/analysis of projects. We have worked on several watershed 
assessments through this program. We have also been utilizing other 
programs such as the Floodplain Management Services Program to 
delineate floodplains for many communities on the Navajo Nation. We 
appreciate the close working relationship that the Navajo Nation has 
developed with the Corps of Engineers offices in Albuquerque, NM, 
Phoenix, AZ and Los Angeles, CA.

    The Navajo Nation has also been effectively using the Native 
American Affairs Technical Assistance Program to implement small scale 
water projects typically less and $200,000 per year. The Navajo Nation 
has recently renewed a Memorandum of Understanding (MOU) with 
Reclamation that list several projects to work on as funding becomes 
available from Reclamation. Most recently, the program awarded funds to 
drill a water well in Arizona to assist with much needed water. The 
Navajo Department of Water Resources meets bi-annually with 
Reclamation's Upper and Lower Colorado River Basin offices to discuss 
ongoing projects and potential funding opportunities.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John Hoeven to 
                               Jason John
    Question 1. How can we better assist Tribes with accessing and 
navigating federal programs?
    Answer. We have benefitted in the past from federal programs that 
have tribal outreach coordinators and consultation meetings that focus 
on what federal programs are available to meet ongoing needs. The 
Navajo Nation is unique in its size and needs so it is important that 
some funding programs recognize this from the beginning as well as 
understand how water development occurs and how water systems are 
operated.

    Question 2. Your written testimony references a 2018 tribal water 
study, which identified challenges and opportunities for action. You 
mention a need to ``address statutory and regulatory prohibitions to 
interstate water management and use.'' In addition to funding and 
staffing needs, are there ways we can more effectively streamline the 
review and permitting process?
    Answer. The Navajo Nation programs are severely underfunded and 
understaffed. Many of these programs are also in dire need to new 
office complexes with adequate space for review and storage of project 
files. Some of the programs are funded through Public Law 93-638 
programs and the funding has been trending downwards over the years. It 
is suggested that the federal programs, primarily the Bureau of Indian 
Affairs meet with these Navajo Nation programs to understand the needs 
and advocate for additional funds through the Department of Interior. 
Without additional staffing, many projects will continue to be delayed.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                          Hon. Raymond Tsumpti
    Question. Does the Chairman agree that the trust responsibility of 
the Federal Government to Tribal nations includes the provision of 
basic water services?
    Answer. Yes, I believe that that provision of basic water services 
is critical to the federal government's trust responsibility for the 
healthcare of Indian tribes and Indian people.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mike Rounds to 
                          Hon. Raymond Tsumpti
    Question. I am curious to get the panel's perspective on the Corps 
of Engineers' Tribal Partnership Program, which has been successfully 
used in South Dakota. I am interested in whether this is a program you 
have used and, if so, what your views are on the effectiveness and 
utility of this program--and the Bureau of Reclamation's Native 
American Affairs Technical Assistance Program?
    Answer. Warm Springs does not have experience with the USACE Tribal 
Partnership Program, but works extensively with the Corps of Engineers 
on its management of the Columbia River hydropower system. Likewise, I 
do not believe Warm Springs has received funding or assistance from the 
Bureau of Reclamation's Native American Affairs Technical Assistance 
Program.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John Hoeven to 
                          Hon. Raymond Tsumpti
    Question. How can we better assist Tribes with accessing and 
navigating federal programs?
    Answer. My concern is with the ability of federal programs to 
tackle the scope of the water infrastructure problem in Indian Country. 
Warm Springs has been able to cobble together small amounts of funding 
from several federal agencies for ``band-aid'' approaches, but they do 
not approach the magnitude of resources needed to address our long-term 
water needs.

                                  [all]
</pre></body></html>
